<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2003</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                      ENERGY AND WATER DEVELOPMENT

                        APPROPRIATIONS FOR 2003

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                             SECOND SESSION
                                ________
              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
                         SONNY CALLAHAN, Alabama
 HAROLD ROGERS, Kentucky             PETER J. VISCLOSKY, Indiana
 RODNEY P. FRELINGHUYSEN, New Jersey CHET EDWARDS, Texas
 TOM LATHAM, Iowa                    ED PASTOR, Arizona
 ROGER F. WICKER, Mississippi        JAMES E. CLYBURN, South Carolina
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 JO ANN EMERSON, Missouri
 JOHN T. DOOLITTLE, California      
                         
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
  Robert Schmidt, Jeanne L. Wilson, and Kevin V. Cook, Staff Assistants
                                ________
                                 PART 3
                                                                   Page
 Bureau of Reclamation............................................    1
 Testimony of the Secretary of the Interior.......................    1
 Appalachian Regional Commission..................................  740

                              <snowflake>

                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 79-478                     WASHINGTON : 2002




                       COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     
   
                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
          ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2003

                              ----------                              

                                       Thursday, February 28, 2002.

                         BUREAU OF RECLAMATION

                               WITNESSES

GALE NORTON, SECRETARY OF THE INTERIOR
JOHN W. KEYS III, COMMISSIONER, BUREAU OF RECLAMATION
RONALD JOHNSON, PROGRAM DIRECTOR, CENTRAL UTAH PROJECT COMPLETION ACT 
    PROGRAM
JOHN D. TREZISE, DIRECTOR OF BUDGET, DEPARTMENT OF THE INTERIOR
ROBERT WOLF, DIRECTOR, PROGRAM AND BUDGET, BUREAU OF RECLAMATION

                     Mr. Callahan's Opening Remarks

    Mr. Callahan. Well, good morning, everyone. Welcome to our 
little committee room and to our subcommittee hearing today. It 
is nice to have you with us. Madam Secretary, we are pleased to 
have you with us, the Secretary of the Interior, and she is 
accompanied by Mr. John Keys, who is the Commissioner of 
Reclamation. Commissioner, nice to have you here, and your 
staff as well that are with you.
    Madam Secretary and Commissioner Keys, we look forward, as 
always to working with you this year, with the budget 
constraints and under the circumstances, as we try to establish 
the resources that might be available to you during the next 
fiscal year. We have received your request. We will review it, 
and I hope that we have a successful year. I hope that you all 
agree, at the end of all of this process, that it was a 
successful year.
    I do not have a big opening statement, so I will yield at 
this time to Secretary Norton. We will accept all of your 
statements for the record in its entirety, and invite you now 
to address the committee.

                   Secretary Norton's Opening Remarks

    Secretary Norton. Good morning, Mr. Chairman. Thank you. 
Members of the committee, good morning. It is a pleasure to be 
here with you today to discuss our budget request for fiscal 
year 2003. I am accompanied by John Keys, who is the 
Commissioner of the Bureau of Reclamation. He comes to this 
position with almost 35 years of service in the Bureau of 
Reclamation.
    Mr. Callahan. He had an excellent start in coming to his 
profession.
    Secretary Norton. Yes, he did.
    Mr. Callahan. He started in Alabama. [Laughter.]
    Secretary Norton. That is right.
    Also, with me is John Trezise, who is the director of 
Budget for the Department, and Bob Wolf who is the Budget 
Director for the Bureau of Reclamation, as well as Ron 
Johnston, directly behind him, who is the Program Director for 
the Central Utah Project Completion Act, and he has also 
submitted written testimony.
    Before we go on to the details of the budget that is 
directly in front of this committee, I would like to talk about 
some of our overall observations for the Department.
    The Department of Interior has a huge impact on the lives 
of Americans. Almost one in every 5 acres of land in this 
Nation is managed by the Department of Interior. These lands 
include some of the most beautiful and pristine areas on Earth. 
We are also entrusted with the symbols of our Nation's 
patriotism from the Statue of Liberty to the Washington 
Monument and other symbols.
    We provide approximately one-third of the Nation's domestic 
energy supply. We serve visitors from around the Nation with 
almost half a million visits to our lands and waters every 
year. Over 200,000 volunteers assist us, a workforce that 
exceeds our employees by almost three to one.
    In the most recently completely fiscal year, we collected 
$11 billion in revenue, which was approximately $1 billion more 
than was appropriated to us. The Bureau of Reclamation itself 
provides the water that makes the arid West bloom. They deliver 
11 trillion gallons of water to over 31 million people in the 
17 Western States. They serve one out of every five Western 
farmers. Their irrigated lands produce 60 percent of the 
Nation's vegetables and 25 percent of its fruit.
    As we began the process last June to build this year's 
budget, we were guided by President Bush's commitments to build 
a new environmentalism through cooperative conservation 
partnerships, to improve our management of public lands and 
waters, to advance the development of domestic energy, to 
improve both the classrooms and the classroom performance of 
Indian students, and to manage for excellence through citizen-
centered governance.
    Our budget priorities, as for the rest of the Federal 
Government, were reshaped by the events of September 11th. 
Interior's employees have responded to the call to increase our 
vigilance and our preparedness for the changed world we face. 
In the wake of the events of September 11th, we put into place 
security measures to protect our most important national 
assets, our visitors, and our employees. We instituted around-
the-clock security at key reclamation facilities, including 
Hoover, Glen Canyon, Shasta and Grand Coulee Dams.


                   DEPARTMENT OF THE INTERIOR ISSUES


    The Department's 2003 budget request for programs funded by 
this committee is $881 million in current appropriations. This 
is a reduction of $33 million compared with the budget enacted 
in 2002. There are a few issues outside this committee's area, 
but certainly within the overall Appropriations Committee's 
consideration that I would like to highlight.
    One of our leading initiatives is the Cooperative 
Conservation Initiative. This is a $100 million request that 
would be divided half and half between grants to the States and 
programs for our three land management agencies: Bureau of Land 
Management, the National Park Service, and Fish and Wildlife 
Service.
    The idea behind this is to provide funding to resolve 
conservation problems by building partnerships. It would 
provide for the carrying out of projects that are conservation 
oriented, like watershed enhancement, wetlands restoration and 
so forth, by having partnerships with States, local 
Governments, private conservation organizations, farmers and so 
forth.
    I think as you all look at the problems that you hear about 
from your constituents, this is a tool that has not previously 
been available to the Federal Government to work with outside 
groups and try to resolve problems. We are also working hard on 
issues dealing with our Indian population. We have trust 
management issues that have received some publicity. We are 
working hard to resolve the issues related to trust management 
and to improve our management of those assets.
    One aspect of this affects the Bureau of Reclamation. The 
District Court for the District of Columbia issued an order in 
December that shut down the Internet system for the Department. 
The Bureau of Reclamation Internet system remains down, but we 
are working hard with the court to provide assurances that 
information technology security measures are in place before 
systems are brought back on line, and so at this point, about 
40 percent of our Department is on line. We are working to 
bring additional parts of our Department back on line, and to 
make payments and handle other matters that affect individuals 
by bringing our systems up on line.
    Finally, we are committed to managing well the resources 
entrusted to us in this budget. We are working diligently to 
improve the quality, effectiveness and efficiency of the 
services we deliver and to enhance the accountability and 
transparency of the work we do with the resources of the 
American people.

                 BUREAU OF RECLAMATION'S BUDGET REQUEST

    The Bureau of Reclamation's request for 2003 is $845 
million. An additional $25 million is requested for the 
Governmentwide legislative proposal to shift pension system and 
health benefit costs to the Bureau. In support of sound water 
resource management and public safety, increases are proposed 
in the budget, including an $11 million increase for the Safety 
of Dams program to continue modification work and ensure the 
safety of the public downstream.
    The budget includes an increase of $26.6 million for 
enhanced security at Bureau of Reclamation facilities, 
continuing the security enhancements we put in place this year.
    The budget requests $33 million for the Animas-La Plata 
project. This is for the scaled-down version of the project 
that was approved through an authorization process recently. 
This supports our commitment to the Colorado Ute Tribes and 
provides municipal and industrial water for the Tribes and 
local entities.
    The Central Utah Project budget is $36.2 million. An 
additional $24,000 is requested for the legislative proposal to 
shift pension system and health benefit costs to the Agency.
    The request includes $12 million for use by the District to 
continue the modified construction of the Diamond Fork System. 
We will be closing off a section of the original tunnel that 
experienced an unforeseen cave-in and resulted in the release 
of dangerous gas.
    We are developing a plan for the construction of 
alternative facilities, along with cost estimates, and will 
share this information with you as soon as it is available.
    In conclusion, I would like to thank you for the 
opportunity to work with you on crafting our fiscal year 2003 
budget.
    Mr. Chairman, I would also like to thank you for your 
invitation last year to visit the Alabama Delta. I look forward 
to perhaps being able to do that this year. Last year was a 
little bit challenging, and I was not able to do so, but I do 
certainly appreciate the invitation.
    [The prepared statement of Secretary Norton follows:]
    [GRAPHIC] [TIFF OMITTED] T9478A.001
    
    [GRAPHIC] [TIFF OMITTED] T9478A.002
    
    [GRAPHIC] [TIFF OMITTED] T9478A.003
    
    [GRAPHIC] [TIFF OMITTED] T9478A.004
    
    [GRAPHIC] [TIFF OMITTED] T9478A.005
    
    [GRAPHIC] [TIFF OMITTED] T9478A.006
    
    [GRAPHIC] [TIFF OMITTED] T9478A.007
    
    [GRAPHIC] [TIFF OMITTED] T9478A.008
    
    [GRAPHIC] [TIFF OMITTED] T9478A.009
    
    [GRAPHIC] [TIFF OMITTED] T9478A.010
    
    [GRAPHIC] [TIFF OMITTED] T9478A.011
    
    [GRAPHIC] [TIFF OMITTED] T9478A.012
    
    Mr. Callahan. The invitation is still there.
    Secretary Norton. Thank you.
    Mr. Callahan. I have so informed the principals of that 
Cleansing of the Delta program. I have discussed this with you, 
and we certainly would welcome you at any time.
    Secretary Norton. Thank you.
    Mr. Callahan. You pick out the time, and I will make it 
available.
    Secretary Norton. Terrific. Thank you.
    Mr. Callahan. Thank you.
    Commissioner?

                   Commissioner Keys' Opening Remarks

    Mr. Keys. Mr. Chairman and members of the subcommittee, it 
is a pleasure to be here and have the opportunity to talk to 
you about the Bureau of Reclamation's 2003 budget presentation. 
We appreciate the continued support from the subcommittee, and 
we look forward to working with you on some of the issues that 
we all have to deal with during the year.
    I would ask that my full written statement be included for 
the record.
    Mr. Chairman, we are proud of the Bureau of Reclamation. 
This year marks the Centennial year for water service in the 
West through the Bureau of Reclamation's programs. We have a 
large celebration scheduled over a year, and certainly we would 
look forward to having you participate with us in the 
ceremonies. We will let you knowas they come up and certainly 
provide adequate invitation for you to participate.

                         FY 2003 BUDGET REQUEST

    As Secretary Norton has explained, our budget request 
totals almost $870 million in current authority. That request 
includes $726 million for our traditional Water and Related 
Resources programs, $54 million for the Policy and 
Administration, and the $25 million for the Civil Service 
Retirement System and the Federal Employee Health Benefits 
Program changes.
    We have also requested $15 million for the California Bay-
Delta program and $49 million for the Central Valley Project 
Restoration Fund.
    From our perspective, this budget is good news for the 
West. As is our tradition, Reclamation is focused on customer 
value, as well as increased accountability and modernization of 
our facilities.
    The fiscal year 2003 request is fiscally responsible. We 
think it will provide funding to keep our dams and facilities 
safe, to deliver the water that they provide for, and to 
provide a stable source of power for our growing population and 
support the environmental efforts that we have underway.
    It demonstrates Reclamation's commitment to meeting the 
West's needs for water and power in a fiscally responsible 
manner. Fiscal year 2003 request for the Water and Related 
Resources Account is $726 million. That provides funding for 
our five major program activities: $289 million for Water and 
Energy, $40 million for Land Management, $89 million for Fish 
and Wildlife programs, $182 million for Facility Operations, 
and $162 million for Facility Maintenance and Rehabilitation.

                   HIGHLIGHTS OF THE FY 2003 REQUEST

    Some of the highlights of this 2003 request include $81 
million for our Safety of Dams program, which is one of 
Reclamation's highest priorities. That request includes 
modifications at Horsetooth Dam in Colorado and Wickiup Dam in 
Oregon. This program also provides for risk management 
activities throughout Reclamation's inventory of 432 dams and 
dikes.
    The request also includes $28.4 million for Site Security 
and Counterterrorism protections. This covers our continued 
heightened public safety and security efforts at Reclamation 
facilities. That includes $26.6 million specifically for 
counterterrorism measures, including guards and surveillance at 
all of our facilities and equipment to provide increased 
security for the general public, Reclamation employees and 
those facilities.
    The request includes $33 million for the construction of 
the Animas-La Plata project in Colorado. During fiscal year 
2003, a lot of that money will go for the continuation of 
cultural resource mitigation activities, the completion of a 
natural gas pipeline relocation, wetlands fish and wildlife 
mitigation, and the award of construction contracts for Ridges 
Basin Dam and the Durango Pumping Plant.
    The request includes $15 million for the Columbia River-
Snake River Salmon Recovery program in Idaho, Oregon, 
Washington, Montana, and Wyoming. That addresses Reclamation's 
legal requirements contained in the biological opinions issued 
by the Fish and Wildlife Service and the National Marine 
Fisheries Service.
    The request also includes $14.3 million for our Klamath 
project in Northern California and Southern Oregon, which 
contains funding for the continued operation of that project 
and for continued studies for improving the water supply and 
water quality to meet agricultural, tribal, wildlife refuge and 
environmental needs in the basin. Just yesterday we released a 
biological assessment for the continued operation of that 
project over the next 10 years.
    The request also includes about $12 million for lower 
Colorado River operations in California, Arizona and Nevada. 
That funds the work necessary to carry out the Secretary's 
responsibility as water master of the Colorado River.
    The request includes about $35 million for the Central 
Arizona Project, which continues construction on the Gila River 
Indian Community Distribution System and other Indian 
distribution systems in Arizona; also, some work on recreation 
development and fulfillment of Endangered Species Act 
mitigation commitments for Roosevelt Dam and for the Central 
Arizona Project Aqueduct on the Gila, Santa Cruz, and San Pedro 
Rivers. Funding is also requested to continue working in the 
Tucson area for municipal entities that get water from the 
facility.
    The request includes about $129 million for the Central 
Valley Project in California. That provides funding for 15 
units, including operation and maintenance of the Central 
Valley Project. Among the activities proposed for funding is 
$5.4 million for the Placer County Water Agency Permanent 
Pumping facility.
    For the Central Valley Project Restoration Fund, we are 
requesting an appropriation of $49 million. As you know, this 
is consistent with the provisions of the authorizing law and 
equal to the estimated collections for fiscal year 2003.
    The request for the California Bay-Delta Restoration Fund 
is consistent with the commitment to find long-term solutions 
to improving water quality, habitat and ecological functions 
and water supply reliability in the Bay-Delta area.
    It also includes $15 million requested to be used for 
Environmental Water Account as well as costs associated with 
administrative support of CALFED. That is associated with the 
planning and management activities of our CALFED program and to 
support those activities of that staff.
    Mr. Chairman, that concludes my informal remarks. I would 
certainly be happy to answer any questions that you may have on 
parts of that program.
    [The prepared statement of Commissioner Keys follows:]
    [GRAPHIC] [TIFF OMITTED] T9478A.013
    
    [GRAPHIC] [TIFF OMITTED] T9478A.014
    
    [GRAPHIC] [TIFF OMITTED] T9478A.015
    
    [GRAPHIC] [TIFF OMITTED] T9478A.016
    
    [GRAPHIC] [TIFF OMITTED] T9478A.017
    
    [GRAPHIC] [TIFF OMITTED] T9478A.018
    
    [GRAPHIC] [TIFF OMITTED] T9478A.019
    
    [GRAPHIC] [TIFF OMITTED] T9478A.020
    
    [GRAPHIC] [TIFF OMITTED] T9478A.021
    
    Mr. Callahan. At this point, we'll put the budget 
justification material for the Bureau of Reclamation and the 
Central Utah Project Completion Account in the record, without 
objection.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T9478A.022
    
    [GRAPHIC] [TIFF OMITTED] T9478A.023
    
    [GRAPHIC] [TIFF OMITTED] T9478A.024
    
    [GRAPHIC] [TIFF OMITTED] T9478A.025
    
    [GRAPHIC] [TIFF OMITTED] T9478A.026
    
    [GRAPHIC] [TIFF OMITTED] T9478A.027
    
    [GRAPHIC] [TIFF OMITTED] T9478A.028
    
    [GRAPHIC] [TIFF OMITTED] T9478A.029
    
    [GRAPHIC] [TIFF OMITTED] T9478A.030
    
    [GRAPHIC] [TIFF OMITTED] T9478A.031
    
    [GRAPHIC] [TIFF OMITTED] T9478A.032
    
    [GRAPHIC] [TIFF OMITTED] T9478A.033
    
    [GRAPHIC] [TIFF OMITTED] T9478A.034
    
    [GRAPHIC] [TIFF OMITTED] T9478A.035
    
    [GRAPHIC] [TIFF OMITTED] T9478A.036
    
    [GRAPHIC] [TIFF OMITTED] T9478A.037
    
    [GRAPHIC] [TIFF OMITTED] T9478A.038
    
    [GRAPHIC] [TIFF OMITTED] T9478A.039
    
    [GRAPHIC] [TIFF OMITTED] T9478A.040
    
    [GRAPHIC] [TIFF OMITTED] T9478A.041
    
    [GRAPHIC] [TIFF OMITTED] T9478A.042
    
    [GRAPHIC] [TIFF OMITTED] T9478A.043
    
    [GRAPHIC] [TIFF OMITTED] T9478A.044
    
    [GRAPHIC] [TIFF OMITTED] T9478A.045
    
    [GRAPHIC] [TIFF OMITTED] T9478A.046
    
    [GRAPHIC] [TIFF OMITTED] T9478A.047
    
    [GRAPHIC] [TIFF OMITTED] T9478A.048
    
    [GRAPHIC] [TIFF OMITTED] T9478A.049
    
    [GRAPHIC] [TIFF OMITTED] T9478A.050
    
    [GRAPHIC] [TIFF OMITTED] T9478A.051
    
    [GRAPHIC] [TIFF OMITTED] T9478A.052
    
    [GRAPHIC] [TIFF OMITTED] T9478A.053
    
    [GRAPHIC] [TIFF OMITTED] T9478A.054
    
    [GRAPHIC] [TIFF OMITTED] T9478A.055
    
    [GRAPHIC] [TIFF OMITTED] T9478A.056
    
    [GRAPHIC] [TIFF OMITTED] T9478A.057
    
    [GRAPHIC] [TIFF OMITTED] T9478A.058
    
    [GRAPHIC] [TIFF OMITTED] T9478A.059
    
    [GRAPHIC] [TIFF OMITTED] T9478A.060
    
    [GRAPHIC] [TIFF OMITTED] T9478A.061
    
    [GRAPHIC] [TIFF OMITTED] T9478A.062
    
    [GRAPHIC] [TIFF OMITTED] T9478A.063
    
    [GRAPHIC] [TIFF OMITTED] T9478A.064
    
    [GRAPHIC] [TIFF OMITTED] T9478A.065
    
    [GRAPHIC] [TIFF OMITTED] T9478A.066
    
    [GRAPHIC] [TIFF OMITTED] T9478A.067
    
    [GRAPHIC] [TIFF OMITTED] T9478A.068
    
    [GRAPHIC] [TIFF OMITTED] T9478A.069
    
    [GRAPHIC] [TIFF OMITTED] T9478A.070
    
    [GRAPHIC] [TIFF OMITTED] T9478A.071
    
    [GRAPHIC] [TIFF OMITTED] T9478A.072
    
    [GRAPHIC] [TIFF OMITTED] T9478A.073
    
    [GRAPHIC] [TIFF OMITTED] T9478A.074
    
    [GRAPHIC] [TIFF OMITTED] T9478A.075
    
    [GRAPHIC] [TIFF OMITTED] T9478A.076
    
    [GRAPHIC] [TIFF OMITTED] T9478A.077
    
    [GRAPHIC] [TIFF OMITTED] T9478A.078
    
    [GRAPHIC] [TIFF OMITTED] T9478A.079
    
    [GRAPHIC] [TIFF OMITTED] T9478A.080
    
    [GRAPHIC] [TIFF OMITTED] T9478A.081
    
    [GRAPHIC] [TIFF OMITTED] T9478A.082
    
    [GRAPHIC] [TIFF OMITTED] T9478A.083
    
    [GRAPHIC] [TIFF OMITTED] T9478A.084
    
    [GRAPHIC] [TIFF OMITTED] T9478A.085
    
    [GRAPHIC] [TIFF OMITTED] T9478A.086
    
    [GRAPHIC] [TIFF OMITTED] T9478A.087
    
    [GRAPHIC] [TIFF OMITTED] T9478A.088
    
    [GRAPHIC] [TIFF OMITTED] T9478A.089
    
    [GRAPHIC] [TIFF OMITTED] T9478A.090
    
    [GRAPHIC] [TIFF OMITTED] T9478A.091
    
    [GRAPHIC] [TIFF OMITTED] T9478A.092
    
    [GRAPHIC] [TIFF OMITTED] T9478A.093
    
    [GRAPHIC] [TIFF OMITTED] T9478A.094
    
    [GRAPHIC] [TIFF OMITTED] T9478A.095
    
    [GRAPHIC] [TIFF OMITTED] T9478A.096
    
    [GRAPHIC] [TIFF OMITTED] T9478A.097
    
    [GRAPHIC] [TIFF OMITTED] T9478A.098
    
    [GRAPHIC] [TIFF OMITTED] T9478A.099
    
    [GRAPHIC] [TIFF OMITTED] T9478A.100
    
    [GRAPHIC] [TIFF OMITTED] T9478A.101
    
    [GRAPHIC] [TIFF OMITTED] T9478A.102
    
    [GRAPHIC] [TIFF OMITTED] T9478A.103
    
    [GRAPHIC] [TIFF OMITTED] T9478A.104
    
    [GRAPHIC] [TIFF OMITTED] T9478A.105
    
    [GRAPHIC] [TIFF OMITTED] T9478A.106
    
    [GRAPHIC] [TIFF OMITTED] T9478A.107
    
    [GRAPHIC] [TIFF OMITTED] T9478A.108
    
    [GRAPHIC] [TIFF OMITTED] T9478A.109
    
    [GRAPHIC] [TIFF OMITTED] T9478A.110
    
    [GRAPHIC] [TIFF OMITTED] T9478A.111
    
    [GRAPHIC] [TIFF OMITTED] T9478A.112
    
    [GRAPHIC] [TIFF OMITTED] T9478A.113
    
    [GRAPHIC] [TIFF OMITTED] T9478A.114
    
    [GRAPHIC] [TIFF OMITTED] T9478A.115
    
    [GRAPHIC] [TIFF OMITTED] T9478A.116
    
    [GRAPHIC] [TIFF OMITTED] T9478A.117
    
    [GRAPHIC] [TIFF OMITTED] T9478A.118
    
    [GRAPHIC] [TIFF OMITTED] T9478A.119
    
    [GRAPHIC] [TIFF OMITTED] T9478A.120
    
    [GRAPHIC] [TIFF OMITTED] T9478A.121
    
    [GRAPHIC] [TIFF OMITTED] T9478A.122
    
    [GRAPHIC] [TIFF OMITTED] T9478A.123
    
    [GRAPHIC] [TIFF OMITTED] T9478A.124
    
    [GRAPHIC] [TIFF OMITTED] T9478A.125
    
    [GRAPHIC] [TIFF OMITTED] T9478A.126
    
    [GRAPHIC] [TIFF OMITTED] T9478A.127
    
    [GRAPHIC] [TIFF OMITTED] T9478A.128
    
    [GRAPHIC] [TIFF OMITTED] T9478A.129
    
    [GRAPHIC] [TIFF OMITTED] T9478A.130
    
    [GRAPHIC] [TIFF OMITTED] T9478A.131
    
    [GRAPHIC] [TIFF OMITTED] T9478A.132
    
    [GRAPHIC] [TIFF OMITTED] T9478A.133
    
    [GRAPHIC] [TIFF OMITTED] T9478A.134
    
    [GRAPHIC] [TIFF OMITTED] T9478A.135
    
    [GRAPHIC] [TIFF OMITTED] T9478A.136
    
    [GRAPHIC] [TIFF OMITTED] T9478A.137
    
    [GRAPHIC] [TIFF OMITTED] T9478A.138
    
    [GRAPHIC] [TIFF OMITTED] T9478A.139
    
    [GRAPHIC] [TIFF OMITTED] T9478A.140
    
    [GRAPHIC] [TIFF OMITTED] T9478A.141
    
    [GRAPHIC] [TIFF OMITTED] T9478A.142
    
    [GRAPHIC] [TIFF OMITTED] T9478A.143
    
    [GRAPHIC] [TIFF OMITTED] T9478A.144
    
    [GRAPHIC] [TIFF OMITTED] T9478A.145
    
    [GRAPHIC] [TIFF OMITTED] T9478A.146
    
    [GRAPHIC] [TIFF OMITTED] T9478A.147
    
    [GRAPHIC] [TIFF OMITTED] T9478A.148
    
    [GRAPHIC] [TIFF OMITTED] T9478A.149
    
    [GRAPHIC] [TIFF OMITTED] T9478A.150
    
    [GRAPHIC] [TIFF OMITTED] T9478A.151
    
    [GRAPHIC] [TIFF OMITTED] T9478A.152
    
    [GRAPHIC] [TIFF OMITTED] T9478A.153
    
    [GRAPHIC] [TIFF OMITTED] T9478A.154
    
    [GRAPHIC] [TIFF OMITTED] T9478A.155
    
    [GRAPHIC] [TIFF OMITTED] T9478A.156
    
    [GRAPHIC] [TIFF OMITTED] T9478A.157
    
    [GRAPHIC] [TIFF OMITTED] T9478A.158
    
    [GRAPHIC] [TIFF OMITTED] T9478A.159
    
    [GRAPHIC] [TIFF OMITTED] T9478A.160
    
    [GRAPHIC] [TIFF OMITTED] T9478A.161
    
    [GRAPHIC] [TIFF OMITTED] T9478A.162
    
    [GRAPHIC] [TIFF OMITTED] T9478A.163
    
    [GRAPHIC] [TIFF OMITTED] T9478A.164
    
    [GRAPHIC] [TIFF OMITTED] T9478A.165
    
    [GRAPHIC] [TIFF OMITTED] T9478A.166
    
    [GRAPHIC] [TIFF OMITTED] T9478A.167
    
    [GRAPHIC] [TIFF OMITTED] T9478A.168
    
    [GRAPHIC] [TIFF OMITTED] T9478A.169
    
    [GRAPHIC] [TIFF OMITTED] T9478A.170
    
    [GRAPHIC] [TIFF OMITTED] T9478A.171
    
    [GRAPHIC] [TIFF OMITTED] T9478A.172
    
    [GRAPHIC] [TIFF OMITTED] T9478A.173
    
    [GRAPHIC] [TIFF OMITTED] T9478A.174
    
    [GRAPHIC] [TIFF OMITTED] T9478A.175
    
    [GRAPHIC] [TIFF OMITTED] T9478A.176
    
    [GRAPHIC] [TIFF OMITTED] T9478A.177
    
    [GRAPHIC] [TIFF OMITTED] T9478A.178
    
    [GRAPHIC] [TIFF OMITTED] T9478A.179
    
    [GRAPHIC] [TIFF OMITTED] T9478A.180
    
    [GRAPHIC] [TIFF OMITTED] T9478A.181
    
    [GRAPHIC] [TIFF OMITTED] T9478A.182
    
    [GRAPHIC] [TIFF OMITTED] T9478A.183
    
    [GRAPHIC] [TIFF OMITTED] T9478A.184
    
    [GRAPHIC] [TIFF OMITTED] T9478A.185
    
    [GRAPHIC] [TIFF OMITTED] T9478A.186
    
    [GRAPHIC] [TIFF OMITTED] T9478A.187
    
    [GRAPHIC] [TIFF OMITTED] T9478A.188
    
    [GRAPHIC] [TIFF OMITTED] T9478A.189
    
    [GRAPHIC] [TIFF OMITTED] T9478A.190
    
    [GRAPHIC] [TIFF OMITTED] T9478A.191
    
    [GRAPHIC] [TIFF OMITTED] T9478A.192
    
    [GRAPHIC] [TIFF OMITTED] T9478A.193
    
    [GRAPHIC] [TIFF OMITTED] T9478A.194
    
    [GRAPHIC] [TIFF OMITTED] T9478A.195
    
    [GRAPHIC] [TIFF OMITTED] T9478A.196
    
    [GRAPHIC] [TIFF OMITTED] T9478A.197
    
    [GRAPHIC] [TIFF OMITTED] T9478A.198
    
    [GRAPHIC] [TIFF OMITTED] T9478A.199
    
    [GRAPHIC] [TIFF OMITTED] T9478A.200
    
    [GRAPHIC] [TIFF OMITTED] T9478A.201
    
    [GRAPHIC] [TIFF OMITTED] T9478A.202
    
    [GRAPHIC] [TIFF OMITTED] T9478A.203
    
    [GRAPHIC] [TIFF OMITTED] T9478A.204
    
    [GRAPHIC] [TIFF OMITTED] T9478A.205
    
    [GRAPHIC] [TIFF OMITTED] T9478A.206
    
    [GRAPHIC] [TIFF OMITTED] T9478A.207
    
    [GRAPHIC] [TIFF OMITTED] T9478A.208
    
    [GRAPHIC] [TIFF OMITTED] T9478A.209
    
    [GRAPHIC] [TIFF OMITTED] T9478A.210
    
    [GRAPHIC] [TIFF OMITTED] T9478A.211
    
    [GRAPHIC] [TIFF OMITTED] T9478A.212
    
    [GRAPHIC] [TIFF OMITTED] T9478A.213
    
    [GRAPHIC] [TIFF OMITTED] T9478A.214
    
    [GRAPHIC] [TIFF OMITTED] T9478A.215
    
    [GRAPHIC] [TIFF OMITTED] T9478A.216
    
    [GRAPHIC] [TIFF OMITTED] T9478A.217
    
    [GRAPHIC] [TIFF OMITTED] T9478A.218
    
    [GRAPHIC] [TIFF OMITTED] T9478A.219
    
    [GRAPHIC] [TIFF OMITTED] T9478A.220
    
    [GRAPHIC] [TIFF OMITTED] T9478A.221
    
    [GRAPHIC] [TIFF OMITTED] T9478A.222
    
    [GRAPHIC] [TIFF OMITTED] T9478A.223
    
    [GRAPHIC] [TIFF OMITTED] T9478A.224
    
    [GRAPHIC] [TIFF OMITTED] T9478A.225
    
    [GRAPHIC] [TIFF OMITTED] T9478A.226
    
    [GRAPHIC] [TIFF OMITTED] T9478A.227
    
    [GRAPHIC] [TIFF OMITTED] T9478A.228
    
    [GRAPHIC] [TIFF OMITTED] T9478A.229
    
    [GRAPHIC] [TIFF OMITTED] T9478A.230
    
    [GRAPHIC] [TIFF OMITTED] T9478A.231
    
    [GRAPHIC] [TIFF OMITTED] T9478A.232
    
    [GRAPHIC] [TIFF OMITTED] T9478A.233
    
    [GRAPHIC] [TIFF OMITTED] T9478A.234
    
    [GRAPHIC] [TIFF OMITTED] T9478A.235
    
    [GRAPHIC] [TIFF OMITTED] T9478A.236
    
    [GRAPHIC] [TIFF OMITTED] T9478A.237
    
    [GRAPHIC] [TIFF OMITTED] T9478A.238
    
    [GRAPHIC] [TIFF OMITTED] T9478A.239
    
    [GRAPHIC] [TIFF OMITTED] T9478A.240
    
    [GRAPHIC] [TIFF OMITTED] T9478A.241
    
    [GRAPHIC] [TIFF OMITTED] T9478A.242
    
    [GRAPHIC] [TIFF OMITTED] T9478A.243
    
    [GRAPHIC] [TIFF OMITTED] T9478A.244
    
    [GRAPHIC] [TIFF OMITTED] T9478A.245
    
    [GRAPHIC] [TIFF OMITTED] T9478A.246
    
    [GRAPHIC] [TIFF OMITTED] T9478A.247
    
    [GRAPHIC] [TIFF OMITTED] T9478A.248
    
    [GRAPHIC] [TIFF OMITTED] T9478A.249
    
    [GRAPHIC] [TIFF OMITTED] T9478A.250
    
    [GRAPHIC] [TIFF OMITTED] T9478A.251
    
    [GRAPHIC] [TIFF OMITTED] T9478A.252
    
    [GRAPHIC] [TIFF OMITTED] T9478A.253
    
    [GRAPHIC] [TIFF OMITTED] T9478A.254
    
    [GRAPHIC] [TIFF OMITTED] T9478A.255
    
    [GRAPHIC] [TIFF OMITTED] T9478A.256
    
    [GRAPHIC] [TIFF OMITTED] T9478A.257
    
    [GRAPHIC] [TIFF OMITTED] T9478A.258
    
    [GRAPHIC] [TIFF OMITTED] T9478A.259
    
    [GRAPHIC] [TIFF OMITTED] T9478A.260
    
    [GRAPHIC] [TIFF OMITTED] T9478A.261
    
    [GRAPHIC] [TIFF OMITTED] T9478A.262
    
    [GRAPHIC] [TIFF OMITTED] T9478A.263
    
    [GRAPHIC] [TIFF OMITTED] T9478A.264
    
    [GRAPHIC] [TIFF OMITTED] T9478A.265
    
    [GRAPHIC] [TIFF OMITTED] T9478A.266
    
    [GRAPHIC] [TIFF OMITTED] T9478A.267
    
    [GRAPHIC] [TIFF OMITTED] T9478A.268
    
    [GRAPHIC] [TIFF OMITTED] T9478A.269
    
    [GRAPHIC] [TIFF OMITTED] T9478A.270
    
    [GRAPHIC] [TIFF OMITTED] T9478A.271
    
    [GRAPHIC] [TIFF OMITTED] T9478A.272
    
    [GRAPHIC] [TIFF OMITTED] T9478A.273
    
    [GRAPHIC] [TIFF OMITTED] T9478A.274
    
    [GRAPHIC] [TIFF OMITTED] T9478A.275
    
    [GRAPHIC] [TIFF OMITTED] T9478A.276
    
    [GRAPHIC] [TIFF OMITTED] T9478A.277
    
    [GRAPHIC] [TIFF OMITTED] T9478A.278
    
    [GRAPHIC] [TIFF OMITTED] T9478A.279
    
    [GRAPHIC] [TIFF OMITTED] T9478A.280
    
    [GRAPHIC] [TIFF OMITTED] T9478A.281
    
    [GRAPHIC] [TIFF OMITTED] T9478A.282
    
    [GRAPHIC] [TIFF OMITTED] T9478A.283
    
    [GRAPHIC] [TIFF OMITTED] T9478A.284
    
    [GRAPHIC] [TIFF OMITTED] T9478A.285
    
    [GRAPHIC] [TIFF OMITTED] T9478A.286
    
    [GRAPHIC] [TIFF OMITTED] T9478A.287
    
    [GRAPHIC] [TIFF OMITTED] T9478A.288
    
    [GRAPHIC] [TIFF OMITTED] T9478A.289
    
    [GRAPHIC] [TIFF OMITTED] T9478A.290
    
    [GRAPHIC] [TIFF OMITTED] T9478A.291
    
    [GRAPHIC] [TIFF OMITTED] T9478A.292
    
    [GRAPHIC] [TIFF OMITTED] T9478A.293
    
    [GRAPHIC] [TIFF OMITTED] T9478A.294
    
    [GRAPHIC] [TIFF OMITTED] T9478A.295
    
    [GRAPHIC] [TIFF OMITTED] T9478A.296
    
    [GRAPHIC] [TIFF OMITTED] T9478A.297
    
    [GRAPHIC] [TIFF OMITTED] T9478A.298
    
    [GRAPHIC] [TIFF OMITTED] T9478A.299
    
    [GRAPHIC] [TIFF OMITTED] T9478A.300
    
    [GRAPHIC] [TIFF OMITTED] T9478A.301
    
    [GRAPHIC] [TIFF OMITTED] T9478A.302
    
    [GRAPHIC] [TIFF OMITTED] T9478A.303
    
    [GRAPHIC] [TIFF OMITTED] T9478A.304
    
    [GRAPHIC] [TIFF OMITTED] T9478A.305
    
    [GRAPHIC] [TIFF OMITTED] T9478A.306
    
    [GRAPHIC] [TIFF OMITTED] T9478A.307
    
    [GRAPHIC] [TIFF OMITTED] T9478A.308
    
    [GRAPHIC] [TIFF OMITTED] T9478A.309
    
    [GRAPHIC] [TIFF OMITTED] T9478A.310
    
    [GRAPHIC] [TIFF OMITTED] T9478A.311
    
    [GRAPHIC] [TIFF OMITTED] T9478A.312
    
    [GRAPHIC] [TIFF OMITTED] T9478A.313
    
    [GRAPHIC] [TIFF OMITTED] T9478A.314
    
    [GRAPHIC] [TIFF OMITTED] T9478A.315
    
    [GRAPHIC] [TIFF OMITTED] T9478A.316
    
    [GRAPHIC] [TIFF OMITTED] T9478A.317
    
    [GRAPHIC] [TIFF OMITTED] T9478A.318
    
    [GRAPHIC] [TIFF OMITTED] T9478A.319
    
    [GRAPHIC] [TIFF OMITTED] T9478A.320
    
    [GRAPHIC] [TIFF OMITTED] T9478A.321
    
    [GRAPHIC] [TIFF OMITTED] T9478A.322
    
    [GRAPHIC] [TIFF OMITTED] T9478A.323
    
    [GRAPHIC] [TIFF OMITTED] T9478A.324
    
    [GRAPHIC] [TIFF OMITTED] T9478A.325
    
    [GRAPHIC] [TIFF OMITTED] T9478A.326
    
    [GRAPHIC] [TIFF OMITTED] T9478A.327
    
    [GRAPHIC] [TIFF OMITTED] T9478A.328
    
    [GRAPHIC] [TIFF OMITTED] T9478A.329
    
    [GRAPHIC] [TIFF OMITTED] T9478A.330
    
    [GRAPHIC] [TIFF OMITTED] T9478A.331
    
    [GRAPHIC] [TIFF OMITTED] T9478A.332
    
    [GRAPHIC] [TIFF OMITTED] T9478A.333
    
    [GRAPHIC] [TIFF OMITTED] T9478A.334
    
    [GRAPHIC] [TIFF OMITTED] T9478A.335
    
    [GRAPHIC] [TIFF OMITTED] T9478A.336
    
    [GRAPHIC] [TIFF OMITTED] T9478A.337
    
    [GRAPHIC] [TIFF OMITTED] T9478A.338
    
    [GRAPHIC] [TIFF OMITTED] T9478A.339
    
    [GRAPHIC] [TIFF OMITTED] T9478A.340
    
    [GRAPHIC] [TIFF OMITTED] T9478A.341
    
    [GRAPHIC] [TIFF OMITTED] T9478A.342
    
    [GRAPHIC] [TIFF OMITTED] T9478A.343
    
    [GRAPHIC] [TIFF OMITTED] T9478A.344
    
    [GRAPHIC] [TIFF OMITTED] T9478A.345
    
    [GRAPHIC] [TIFF OMITTED] T9478A.346
    
    [GRAPHIC] [TIFF OMITTED] T9478A.347
    
    [GRAPHIC] [TIFF OMITTED] T9478A.348
    
    [GRAPHIC] [TIFF OMITTED] T9478A.349
    
    [GRAPHIC] [TIFF OMITTED] T9478A.350
    
    [GRAPHIC] [TIFF OMITTED] T9478A.351
    
    [GRAPHIC] [TIFF OMITTED] T9478A.352
    
    [GRAPHIC] [TIFF OMITTED] T9478A.353
    
    [GRAPHIC] [TIFF OMITTED] T9478A.354
    
    [GRAPHIC] [TIFF OMITTED] T9478A.355
    
    [GRAPHIC] [TIFF OMITTED] T9478A.356
    
    [GRAPHIC] [TIFF OMITTED] T9478A.357
    
    [GRAPHIC] [TIFF OMITTED] T9478A.358
    
    [GRAPHIC] [TIFF OMITTED] T9478A.359
    
    [GRAPHIC] [TIFF OMITTED] T9478A.360
    
    [GRAPHIC] [TIFF OMITTED] T9478A.361
    
    [GRAPHIC] [TIFF OMITTED] T9478A.362
    
    [GRAPHIC] [TIFF OMITTED] T9478A.363
    
    [GRAPHIC] [TIFF OMITTED] T9478A.364
    
    [GRAPHIC] [TIFF OMITTED] T9478A.365
    
    [GRAPHIC] [TIFF OMITTED] T9478A.366
    
    [GRAPHIC] [TIFF OMITTED] T9478A.367
    
    [GRAPHIC] [TIFF OMITTED] T9478A.368
    
    [GRAPHIC] [TIFF OMITTED] T9478A.369
    
    [GRAPHIC] [TIFF OMITTED] T9478A.370
    
    [GRAPHIC] [TIFF OMITTED] T9478A.371
    
    [GRAPHIC] [TIFF OMITTED] T9478A.372
    
    [GRAPHIC] [TIFF OMITTED] T9478A.373
    
    [GRAPHIC] [TIFF OMITTED] T9478A.374
    
    [GRAPHIC] [TIFF OMITTED] T9478A.375
    
    [GRAPHIC] [TIFF OMITTED] T9478A.376
    
    [GRAPHIC] [TIFF OMITTED] T9478A.377
    
    [GRAPHIC] [TIFF OMITTED] T9478A.378
    
    [GRAPHIC] [TIFF OMITTED] T9478A.379
    
    [GRAPHIC] [TIFF OMITTED] T9478A.380
    
    [GRAPHIC] [TIFF OMITTED] T9478A.381
    
    [GRAPHIC] [TIFF OMITTED] T9478A.382
    
    [GRAPHIC] [TIFF OMITTED] T9478A.383
    
    [GRAPHIC] [TIFF OMITTED] T9478A.384
    
    [GRAPHIC] [TIFF OMITTED] T9478A.385
    
    [GRAPHIC] [TIFF OMITTED] T9478A.386
    
    [GRAPHIC] [TIFF OMITTED] T9478A.387
    
    [GRAPHIC] [TIFF OMITTED] T9478A.388
    
    [GRAPHIC] [TIFF OMITTED] T9478A.389
    
    [GRAPHIC] [TIFF OMITTED] T9478A.390
    
    [GRAPHIC] [TIFF OMITTED] T9478A.391
    
    [GRAPHIC] [TIFF OMITTED] T9478A.392
    
    [GRAPHIC] [TIFF OMITTED] T9478A.393
    
    [GRAPHIC] [TIFF OMITTED] T9478A.394
    
    [GRAPHIC] [TIFF OMITTED] T9478A.395
    
    [GRAPHIC] [TIFF OMITTED] T9478A.396
    
    [GRAPHIC] [TIFF OMITTED] T9478A.397
    
    [GRAPHIC] [TIFF OMITTED] T9478A.398
    
    [GRAPHIC] [TIFF OMITTED] T9478A.399
    
    [GRAPHIC] [TIFF OMITTED] T9478A.400
    
    [GRAPHIC] [TIFF OMITTED] T9478A.401
    
    [GRAPHIC] [TIFF OMITTED] T9478A.402
    
    [GRAPHIC] [TIFF OMITTED] T9478A.403
    
    [GRAPHIC] [TIFF OMITTED] T9478A.404
    
    [GRAPHIC] [TIFF OMITTED] T9478A.405
    
    [GRAPHIC] [TIFF OMITTED] T9478A.406
    
    [GRAPHIC] [TIFF OMITTED] T9478A.407
    
    [GRAPHIC] [TIFF OMITTED] T9478A.408
    
    [GRAPHIC] [TIFF OMITTED] T9478A.409
    
    [GRAPHIC] [TIFF OMITTED] T9478A.410
    
    [GRAPHIC] [TIFF OMITTED] T9478A.411
    
    [GRAPHIC] [TIFF OMITTED] T9478A.412
    
    [GRAPHIC] [TIFF OMITTED] T9478A.413
    
    [GRAPHIC] [TIFF OMITTED] T9478A.414
    
    [GRAPHIC] [TIFF OMITTED] T9478A.415
    
    [GRAPHIC] [TIFF OMITTED] T9478A.416
    
    [GRAPHIC] [TIFF OMITTED] T9478A.417
    
    [GRAPHIC] [TIFF OMITTED] T9478A.418
    
    [GRAPHIC] [TIFF OMITTED] T9478A.419
    
    [GRAPHIC] [TIFF OMITTED] T9478A.420
    
    [GRAPHIC] [TIFF OMITTED] T9478A.421
    
    [GRAPHIC] [TIFF OMITTED] T9478A.422
    
    [GRAPHIC] [TIFF OMITTED] T9478A.423
    
    [GRAPHIC] [TIFF OMITTED] T9478A.424
    
    [GRAPHIC] [TIFF OMITTED] T9478A.425
    
    [GRAPHIC] [TIFF OMITTED] T9478A.426
    
    [GRAPHIC] [TIFF OMITTED] T9478A.427
    
    [GRAPHIC] [TIFF OMITTED] T9478A.428
    
    [GRAPHIC] [TIFF OMITTED] T9478A.429
    
    [GRAPHIC] [TIFF OMITTED] T9478A.430
    
    [GRAPHIC] [TIFF OMITTED] T9478A.431
    
    [GRAPHIC] [TIFF OMITTED] T9478A.432
    
    [GRAPHIC] [TIFF OMITTED] T9478A.433
    
    [GRAPHIC] [TIFF OMITTED] T9478A.434
    
    [GRAPHIC] [TIFF OMITTED] T9478A.435
    
    [GRAPHIC] [TIFF OMITTED] T9478A.436
    
    [GRAPHIC] [TIFF OMITTED] T9478A.437
    
    [GRAPHIC] [TIFF OMITTED] T9478A.438
    
    [GRAPHIC] [TIFF OMITTED] T9478A.439
    
    [GRAPHIC] [TIFF OMITTED] T9478A.440
    
    [GRAPHIC] [TIFF OMITTED] T9478A.441
    
    [GRAPHIC] [TIFF OMITTED] T9478A.442
    
    [GRAPHIC] [TIFF OMITTED] T9478A.443
    
    [GRAPHIC] [TIFF OMITTED] T9478A.444
    
    [GRAPHIC] [TIFF OMITTED] T9478A.445
    
    [GRAPHIC] [TIFF OMITTED] T9478A.446
    
    [GRAPHIC] [TIFF OMITTED] T9478A.447
    
    [GRAPHIC] [TIFF OMITTED] T9478A.448
    
    [GRAPHIC] [TIFF OMITTED] T9478A.449
    
    [GRAPHIC] [TIFF OMITTED] T9478A.450
    
    [GRAPHIC] [TIFF OMITTED] T9478A.451
    
    [GRAPHIC] [TIFF OMITTED] T9478A.452
    
    [GRAPHIC] [TIFF OMITTED] T9478A.453
    
    [GRAPHIC] [TIFF OMITTED] T9478A.454
    
    [GRAPHIC] [TIFF OMITTED] T9478A.455
    
    [GRAPHIC] [TIFF OMITTED] T9478A.456
    
    [GRAPHIC] [TIFF OMITTED] T9478A.457
    
    [GRAPHIC] [TIFF OMITTED] T9478A.458
    
    [GRAPHIC] [TIFF OMITTED] T9478A.459
    
    [GRAPHIC] [TIFF OMITTED] T9478A.460
    
    [GRAPHIC] [TIFF OMITTED] T9478A.461
    
    [GRAPHIC] [TIFF OMITTED] T9478A.462
    
    [GRAPHIC] [TIFF OMITTED] T9478A.463
    
    [GRAPHIC] [TIFF OMITTED] T9478A.464
    
    [GRAPHIC] [TIFF OMITTED] T9478A.465
    
    [GRAPHIC] [TIFF OMITTED] T9478A.466
    
    [GRAPHIC] [TIFF OMITTED] T9478A.467
    
    [GRAPHIC] [TIFF OMITTED] T9478A.468
    
    [GRAPHIC] [TIFF OMITTED] T9478A.469
    
    [GRAPHIC] [TIFF OMITTED] T9478A.470
    
    [GRAPHIC] [TIFF OMITTED] T9478A.471
    
    [GRAPHIC] [TIFF OMITTED] T9478A.472
    
    [GRAPHIC] [TIFF OMITTED] T9478A.473
    
    [GRAPHIC] [TIFF OMITTED] T9478A.474
    
    [GRAPHIC] [TIFF OMITTED] T9478A.475
    
    [GRAPHIC] [TIFF OMITTED] T9478A.476
    
    [GRAPHIC] [TIFF OMITTED] T9478A.477
    
    [GRAPHIC] [TIFF OMITTED] T9478A.478
    
    [GRAPHIC] [TIFF OMITTED] T9478A.479
    
    [GRAPHIC] [TIFF OMITTED] T9478A.480
    
    [GRAPHIC] [TIFF OMITTED] T9478A.481
    
    [GRAPHIC] [TIFF OMITTED] T9478A.482
    
    [GRAPHIC] [TIFF OMITTED] T9478A.483
    
    [GRAPHIC] [TIFF OMITTED] T9478A.484
    
    [GRAPHIC] [TIFF OMITTED] T9478A.485
    
    [GRAPHIC] [TIFF OMITTED] T9478A.486
    
    [GRAPHIC] [TIFF OMITTED] T9478A.487
    
    [GRAPHIC] [TIFF OMITTED] T9478A.488
    
    [GRAPHIC] [TIFF OMITTED] T9478A.489
    
    [GRAPHIC] [TIFF OMITTED] T9478A.490
    
    [GRAPHIC] [TIFF OMITTED] T9478A.491
    
    [GRAPHIC] [TIFF OMITTED] T9478A.492
    
    [GRAPHIC] [TIFF OMITTED] T9478A.493
    
    [GRAPHIC] [TIFF OMITTED] T9478A.494
    
    [GRAPHIC] [TIFF OMITTED] T9478A.495
    
    [GRAPHIC] [TIFF OMITTED] T9478A.496
    
    [GRAPHIC] [TIFF OMITTED] T9478A.497
    
    [GRAPHIC] [TIFF OMITTED] T9478A.498
    
    [GRAPHIC] [TIFF OMITTED] T9478A.499
    
    [GRAPHIC] [TIFF OMITTED] T9478A.500
    
    [GRAPHIC] [TIFF OMITTED] T9478A.501
    
    [GRAPHIC] [TIFF OMITTED] T9478A.502
    
    [GRAPHIC] [TIFF OMITTED] T9478A.503
    
    [GRAPHIC] [TIFF OMITTED] T9478A.504
    
    [GRAPHIC] [TIFF OMITTED] T9478A.505
    
    [GRAPHIC] [TIFF OMITTED] T9478A.506
    
    [GRAPHIC] [TIFF OMITTED] T9478A.507
    
    [GRAPHIC] [TIFF OMITTED] T9478A.508
    
    [GRAPHIC] [TIFF OMITTED] T9478A.509
    
    [GRAPHIC] [TIFF OMITTED] T9478A.510
    
    [GRAPHIC] [TIFF OMITTED] T9478A.511
    
    [GRAPHIC] [TIFF OMITTED] T9478A.512
    
    [GRAPHIC] [TIFF OMITTED] T9478A.513
    
    [GRAPHIC] [TIFF OMITTED] T9478A.514
    
    [GRAPHIC] [TIFF OMITTED] T9478A.515
    
    [GRAPHIC] [TIFF OMITTED] T9478A.516
    
    [GRAPHIC] [TIFF OMITTED] T9478A.517
    
    [GRAPHIC] [TIFF OMITTED] T9478A.518
    
    [GRAPHIC] [TIFF OMITTED] T9478A.519
    
    [GRAPHIC] [TIFF OMITTED] T9478A.520
    
    [GRAPHIC] [TIFF OMITTED] T9478A.521
    
    [GRAPHIC] [TIFF OMITTED] T9478A.522
    
    [GRAPHIC] [TIFF OMITTED] T9478A.523
    
    [GRAPHIC] [TIFF OMITTED] T9478A.524
    
    [GRAPHIC] [TIFF OMITTED] T9478A.525
    
    [GRAPHIC] [TIFF OMITTED] T9478A.526
    
    [GRAPHIC] [TIFF OMITTED] T9478A.527
    
    [GRAPHIC] [TIFF OMITTED] T9478A.528
    
    [GRAPHIC] [TIFF OMITTED] T9478A.529
    
    [GRAPHIC] [TIFF OMITTED] T9478A.530
    
    [GRAPHIC] [TIFF OMITTED] T9478A.531
    
    [GRAPHIC] [TIFF OMITTED] T9478A.532
    
    [GRAPHIC] [TIFF OMITTED] T9478A.533
    
    [GRAPHIC] [TIFF OMITTED] T9478A.534
    
    [GRAPHIC] [TIFF OMITTED] T9478A.535
    
    [GRAPHIC] [TIFF OMITTED] T9478A.536
    
    [GRAPHIC] [TIFF OMITTED] T9478A.537
    
    [GRAPHIC] [TIFF OMITTED] T9478A.538
    
    [GRAPHIC] [TIFF OMITTED] T9478A.539
    
    [GRAPHIC] [TIFF OMITTED] T9478A.540
    
    [GRAPHIC] [TIFF OMITTED] T9478A.541
    
    [GRAPHIC] [TIFF OMITTED] T9478A.542
    
    [GRAPHIC] [TIFF OMITTED] T9478A.543
    
    [GRAPHIC] [TIFF OMITTED] T9478A.544
    
    [GRAPHIC] [TIFF OMITTED] T9478A.545
    
    [GRAPHIC] [TIFF OMITTED] T9478A.546
    
    [GRAPHIC] [TIFF OMITTED] T9478A.547
    
    [GRAPHIC] [TIFF OMITTED] T9478A.548
    
    [GRAPHIC] [TIFF OMITTED] T9478A.549
    
    [GRAPHIC] [TIFF OMITTED] T9478A.550
    
    [GRAPHIC] [TIFF OMITTED] T9478A.551
    
    [GRAPHIC] [TIFF OMITTED] T9478A.552
    
    [GRAPHIC] [TIFF OMITTED] T9478A.553
    
    [GRAPHIC] [TIFF OMITTED] T9478A.554
    
    [GRAPHIC] [TIFF OMITTED] T9478A.555
    
    [GRAPHIC] [TIFF OMITTED] T9478A.556
    
    [GRAPHIC] [TIFF OMITTED] T9478A.557
    
    [GRAPHIC] [TIFF OMITTED] T9478A.558
    
    [GRAPHIC] [TIFF OMITTED] T9478A.559
    
    [GRAPHIC] [TIFF OMITTED] T9478A.560
    
    [GRAPHIC] [TIFF OMITTED] T9478A.561
    
    [GRAPHIC] [TIFF OMITTED] T9478A.562
    
    [GRAPHIC] [TIFF OMITTED] T9478A.563
    
    [GRAPHIC] [TIFF OMITTED] T9478A.564
    
    [GRAPHIC] [TIFF OMITTED] T9478A.565
    
    [GRAPHIC] [TIFF OMITTED] T9478A.566
    
    [GRAPHIC] [TIFF OMITTED] T9478A.567
    
    [GRAPHIC] [TIFF OMITTED] T9478A.568
    
    [GRAPHIC] [TIFF OMITTED] T9478A.569
    
    [GRAPHIC] [TIFF OMITTED] T9478A.570
    
    [GRAPHIC] [TIFF OMITTED] T9478A.571
    
    [GRAPHIC] [TIFF OMITTED] T9478A.572
    
    [GRAPHIC] [TIFF OMITTED] T9478A.573
    
    [GRAPHIC] [TIFF OMITTED] T9478A.574
    
    [GRAPHIC] [TIFF OMITTED] T9478A.575
    
    [GRAPHIC] [TIFF OMITTED] T9478A.576
    
    [GRAPHIC] [TIFF OMITTED] T9478A.577
    
    [GRAPHIC] [TIFF OMITTED] T9478A.578
    
    [GRAPHIC] [TIFF OMITTED] T9478A.579
    
    [GRAPHIC] [TIFF OMITTED] T9478A.580
    
    [GRAPHIC] [TIFF OMITTED] T9478A.581
    
    [GRAPHIC] [TIFF OMITTED] T9478A.582
    
    [GRAPHIC] [TIFF OMITTED] T9478A.583
    
    [GRAPHIC] [TIFF OMITTED] T9478A.584
    
    [GRAPHIC] [TIFF OMITTED] T9478A.585
    
    [GRAPHIC] [TIFF OMITTED] T9478A.586
    
    [GRAPHIC] [TIFF OMITTED] T9478A.587
    
    [GRAPHIC] [TIFF OMITTED] T9478A.588
    
    [GRAPHIC] [TIFF OMITTED] T9478A.589
    
    [GRAPHIC] [TIFF OMITTED] T9478A.590
    
    [GRAPHIC] [TIFF OMITTED] T9478A.591
    
    [GRAPHIC] [TIFF OMITTED] T9478A.592
    
    [GRAPHIC] [TIFF OMITTED] T9478A.593
    
    [GRAPHIC] [TIFF OMITTED] T9478A.594
    
    [GRAPHIC] [TIFF OMITTED] T9478A.595
    
    [GRAPHIC] [TIFF OMITTED] T9478A.596
    
    [GRAPHIC] [TIFF OMITTED] T9478A.597
    
    [GRAPHIC] [TIFF OMITTED] T9478A.598
    
    [GRAPHIC] [TIFF OMITTED] T9478A.599
    
    [GRAPHIC] [TIFF OMITTED] T9478A.600
    
    [GRAPHIC] [TIFF OMITTED] T9478A.601
    
    [GRAPHIC] [TIFF OMITTED] T9478A.602
    
    [GRAPHIC] [TIFF OMITTED] T9478A.603
    
    [GRAPHIC] [TIFF OMITTED] T9478A.604
    
    [GRAPHIC] [TIFF OMITTED] T9478A.605
    
    [GRAPHIC] [TIFF OMITTED] T9478A.606
    
    [GRAPHIC] [TIFF OMITTED] T9478A.607
    
    [GRAPHIC] [TIFF OMITTED] T9478A.608
    
    [GRAPHIC] [TIFF OMITTED] T9478A.609
    
    [GRAPHIC] [TIFF OMITTED] T9478A.610
    
    [GRAPHIC] [TIFF OMITTED] T9478A.611
    
    [GRAPHIC] [TIFF OMITTED] T9478A.612
    
    [GRAPHIC] [TIFF OMITTED] T9478A.613
    
    [GRAPHIC] [TIFF OMITTED] T9478A.614
    
    [GRAPHIC] [TIFF OMITTED] T9478A.615
    
    Mr. Callahan. Thank you, Commissioner.
    Did you say you needed $100 million for the grant program; 
is that what you were suggesting? Is that the number you used?
    Secretary Norton. That is correct. That is not from this 
subcommittee's account.
    Mr. Callahan. That is not?
    Secretary Norton. Correct.

                               SALTON SEA

    Mr. Callahan. Some of the members of the subcommittee had 
the opportunity to visit the Salton Sea in Southern California 
this January, and they have a very interesting program--and 
perhaps it comes under Reclamation--whereby they were filtering 
water that was pouring into the Salton Sea.
    As you know, the Salton Sea is beginning to die as a result 
of salinity levels. But the program which we visited and 
witnessed was just a program of straining the water through 
natural means, which they seemed optimistic would truly have a 
very favorable impact on the cleansing of that sea. I, for one, 
am interested in helping them. Congressman Duncan Hunter 
invited us to look at that area, and he is requesting a pretty 
good amount of money to build additional filtering ponds.
    I am wondering, are you familiar, Commissioner, or are you, 
Madam Secretary, with that program?
    Secretary Norton. I am generally familiar with that. I have 
been to that area, although I have not gone to that specific 
project. I have talked with Congresswoman Bono, as well as 
Congressman Duncan Hunter, about the Salton Sea. It is a 
difficult issue because that area does not have the direct 
supply of water from the Colorado River. Of course, we already 
have the intense scarcity of water in the allocation from the 
Colorado River, but I believe that there are other things that 
can be done to enhance the Salton Sea ecosystem through the 
wetlands restoration and other types of activities.
    Mr. Keys. Mr. Chairman, we are heavily involved in looking 
at the Salton Sea and trying to find a solution there to its 
continued salinization. Answering that whole problem is part of 
our program. It is called the California 4.4 program, where we 
are trying to get California back within its original 
allocation of 4.4 million acre-feet Colorado River water.
    We are looking at a number of alternatives. The one that 
you had a chance to visit was in the Alamo River and New River 
area, and that certainly has promise, but we are looking at a 
number of alternatives that we could consider to help solve the 
problem. Certainly, one of the questions to answer is what is 
the solution? In other words, where are we trying to get to?
    We are looking at a tight schedule for all of the States 
involved for our studies. The first one of those reports is due 
back to you folks in April, and we are certainly working on 
that very closely.
    Mr. Callahan. I do not pretend to be an expert on this, and 
you all are, but it is only logical to assume that if they are 
cleansing that water, what limited amount of water that is 
pouring in there, through the New River and others, that at 
least it is contributing to the cleansing of the Sea. It may 
not be sufficient to accomplish the goal we all want to 
accomplish, but if you are cleansing a gallon of water, and you 
expanded the program to cleanse 1,000 gallons of water, even 
before you settled the Colorado River problem, you are 
contributing to the betterment of the Sea. And I do not know 
how much room they have for expansion, but it appears to me 
that there is plenty of room for expansion.
    Have you actually seen, Commissioner, the filtering system 
that they have installed?
    Mr. Keys. I have not been to that one, sir, but I have seen 
a similar one that they are looking at in another area.
    It is called an enhanced evaporation system and it does 
have a lot of promise. The only problem is that it produces 
small amounts of water, and it is very expensive. But it is one 
of the alternatives that we are looking at.
    Mr. Callahan. My observation was this was just existing 
runoff from, I guess, irrigation overflows, that was cleansed 
of all of the fertilizer from the farming community. And the 
levels of purity at the end of this cleansing pond was very 
dramatic. I think last year we put some money in our bill to 
allow them to continue their program. But I just wondered, if 
you are going to start giving out $100-million grants, this is 
a proven, albeit it might not be the total solution, it is a 
proven accomplishment in the right direction.
    Secretary Norton. Mr. Chairman, the $100 million 
Cooperative Conservation Initiative would be available for 
things like that. It would build upon partnerships and help 
create partnerships so that any Federal funding would be 
matched, and hopefully matched several times over, by the 
involvement of local Governments, and private organizations, 
and so forth.
    Certainly, in the Salton Sea area there is so much interest 
in the local communities, for example the Palm Springs area. I 
think that kind of program, encouraging the amplification of 
the types of activities you are talking about, would be very 
helpful.
    We also definitely have some water supply issues that are 
very difficult in the Salton Sea and the Southern California 
area.
    Mr. Callahan. The rules prohibit us from inviting members 
outside of the Appropriations Committee to sit on this panel, 
but I did send a message to Congressman Hunter, and he is 
chairing an Armed Services hearing at this moment. But if he 
gets back, I would like to give him the opportunity to describe 
the system that we witnessed to you all and to ask you to come 
and look at it sometime during the spring or the early summer, 
so this committee can look at his request to see if this is a 
viable beginning of a solution to the salinity levels of the 
Salton Sea.
    Thank you. Mr. Visclosky

                    Mr. Visclosky's Opening Remarks

    Mr. Visclosky. Madam Secretary, thank you very much for 
being here. Commissioner, thank you also.

                                 CALFED

    On CALFED, Madam Secretary, it is my understanding we still 
do not have authorization for that program, and you have 
legislation pending in the House and the Senate. Does the 
administration have a position on either of those legislative 
vehicles?
    Secretary Norton. We have testified as to both the House 
and the Senate's legislation, and I would be happy to provide 
you copies of that testimony.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T9478A.616
    
    [GRAPHIC] [TIFF OMITTED] T9478A.617
    
    [GRAPHIC] [TIFF OMITTED] T9478A.618
    
    [GRAPHIC] [TIFF OMITTED] T9478A.619
    
    [GRAPHIC] [TIFF OMITTED] T9478A.620
    
    [GRAPHIC] [TIFF OMITTED] T9478A.621
    
    [GRAPHIC] [TIFF OMITTED] T9478A.622
    
    [GRAPHIC] [TIFF OMITTED] T9478A.623
    
    [GRAPHIC] [TIFF OMITTED] T9478A.624
    
    [GRAPHIC] [TIFF OMITTED] T9478A.625
    
    [GRAPHIC] [TIFF OMITTED] T9478A.626
    
    [GRAPHIC] [TIFF OMITTED] T9478A.627
    
    [GRAPHIC] [TIFF OMITTED] T9478A.628
    
    [GRAPHIC] [TIFF OMITTED] T9478A.629
    
    [GRAPHIC] [TIFF OMITTED] T9478A.630
    
    [GRAPHIC] [TIFF OMITTED] T9478A.631
    
    [GRAPHIC] [TIFF OMITTED] T9478A.632
    
    [GRAPHIC] [TIFF OMITTED] T9478A.633
    
    [GRAPHIC] [TIFF OMITTED] T9478A.634
    
    [GRAPHIC] [TIFF OMITTED] T9478A.635
    
    Secretary Norton. Overall, we support trying to find 
solutions in that area. And the type of process that CALFED has 
evolved into, trying to bring together all of the various 
interests,trying to come up with a comprehensive approach is 
something that I think is very beneficial. As you pointed out, it has 
not been authorized. The proposed spending that we have in this year's 
budget is helpful in moving us in the direction of CALFED, but is being 
used within existing statutory authorities.
    Mr. Visclosky. If I could follow up on that point, for 
fiscal year 2002, the committee provided $30 million for 
CALFED, even though there is no authorization. Am I correct on 
that?
    Secretary Norton. It was, again, the same type of situation 
where $30 million, I believe, went to CALFED-type activities, 
but was used within the existing authorities of the Bureau of 
Reclamation and other agencies.
    Mr. Visclosky. But for fiscal year 2001, the committee 
provided no funds because it was the position of the chair at 
that time, which I agreed with, is if you did not have 
authorization to, with some specificity, outline the agreements 
reached and the long-term solutions sought, that we ought to 
defer funding.
    There was no authorization in 2001, and no monies were 
spent, but we apparently have contemporaneous authorization 
which we are using to spend $30 million this year. I would go 
one year further back in time, it is my recollection that we 
appropriated $60 million for CALFED in fiscal year 2000. All of 
those monies were not obligated in 2000, and some of those 
funds, and I would ask if the Commissioner has a figure, how 
many of those were actually spent in 2001, when there was no 
authorization provided or were those pursuant to previous 
authorization?
    Mr. Keys. Mr. Chairman and Mr. Visclosky, we would supply 
those numbers for the record, but certainly any of those funds 
spent after the year 2000 were spent within our existing 
authorizations and not the one that ran out.
    [The information follows:]

                Carryover Expenditures in the Bay-Delta

    The California Bay-Delta Environmental Enhancement Act, P.L. 104-
333, Title XI, authorized certain environmental activities, many of 
which were projects that were to take several years to accomplish. 
Because appropriations were only authorized for three years, projects 
selected were fully funded. Many of these projects are continuing to be 
constructed, so the unexpended carryover is necessary to insure project 
completion. Carryover of $18.8 million from the previous three years' 
appropriations was expended in Fiscal Year 2001, leaving $37.0 million 
to be expended under P.L. 104-333.

    Mr. Visclosky. So we would only be talking about the $30 
million for 2002 being spent in an unauthorized fashion, but 
apparently justified, given the existing authorization for 
other types of activities.
    Mr. Keys. That is correct.
    Secretary Norton. We have the CVPIA authorization, as well 
as other types of statutes that are the basis for our 
activities in that area.
    Mr. Visclosky. Madam Secretary, I would ask, for the 
record, if the panel could provide, with detail, the 
authorizations you relied on for the expenditure of the $30 
million for the current fiscal year and the authorization on 
which the $15 million requested for this coming fiscal year are 
based.
    But I would ask now, if we are in the second year of these 
expenditures, without having a resolution of the authorizing 
legislation, why bother?
    Secretary Norton. First of all, we would be happy to 
provide you with that detailed documentation.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T9478A.636
    
    Secretary Norton. Secondly, there are issues such as the 
Tracy Fish Test facility, which is a part of the funding that 
we are seeking, and that is something that is necessary. 
Basically, it is the pump that connects the Northern California 
Water and the Southern California water needs, and there is 
concern about the impact of that pumping on fish populations. 
That is something that needs to be addressed, whether it is 
done under the auspices of the CALFED program or under our 
regular management responsibilities. There are a number of 
other things that are similar to that, in terms of just being 
the types of things that we ought to be doing as part of our 
responsibilities.
    The Environmental Water Account is another example of that. 
While that is often included, as people talk about CALFED, that 
is something that assists the Bureau of Reclamation in meeting 
its responsibilities to irrigated agriculture, as well as 
meeting its environmental responsibilities.
    Mr. Visclosky. One of the concerns, as far as not having 
the authorization, is in the Commissioner's testimony, and he 
also orally recited it. We are concerned about water quality, 
there is no disagreement on that, and habitat, andecological 
functions. I do not recall what the language of our report was for 
fiscal year 2002, but my recollection was, in earlier years, this 
subcommittee also expressed great concern about having balance between 
users, as well as environmental projects. And I do not think, again, 
any of us would disagree that monies ought to be set aside for 
environmental restoration. But my sense, on the face of it, looking at 
the request now, is that there is a skewing of these dollars in that 
respect, as opposed to the end users, and that, short of a compromise 
and agreement finally being forced on this issue, we will continue to 
kind of go along funding discrete programs.
    My question is why bother? My further question is, if you 
do not receive funds, maybe people will come to the table and 
resolve some of these long-term problems that, apparently, lack 
of pressure of no money has allowed them simply to ignore.
    Secretary Norton. Certainly, that balance between the users 
and the environment is something that is at the heart of the 
CALFED debate. It is an issue that we are concerned about. That 
is part of the balance that has been addressed in our previous 
testimony on that legislation.
    There are always issues on environmental impacts that we 
need to be concerned about as we are going forward with our 
operations, and while we would like to see the overall balance 
resolved with legislation, we think it does make sense to 
continue on with some of these activities pending that.
    Mr. Visclosky. I see my time is up. Mr. Hunter is here, but 
I would simply close by suggesting that if some pressure is not 
brought to bear on these negotiations, for example no funds 
until we have an authorization for a clearly defined long-term 
program that is balanced between users and the environment, we 
are going to find ourselves in 12 months, again, talking about 
discrete sums of money with current authorization and the 
problem remaining unresolved.
    Mr. Keys. Mr. Chairman and Mr. Visclosky, if you look at 
our 2003 request, almost half of that money is directed toward 
looking at studies for expansion of storage; in other words, 
looking at Shasta enlargement at the San Joaquin River Basin 
Study, the Las Vaqueros expansion and that sort of thing.
    So there is a balance there. While it may not be one-for-
one, it is pretty close.
    Mr. Visclosky. I appreciate your answer.
    Thank you, Mr. Chairman.

                       Mr. Hunter and Salton Sea

    Mr. Callahan. With the indulgence of the committee, I 
wonder if I could take just 3 or 4 minutes to facilitate Mr. 
Hunter. Let me inform you, Congressman, that the rules prohibit 
you from questioning the panelists, but for your information, 
Commissioner Keys is the head of the Bureau of Reclamation and 
Secretary Norton, of course, is the Secretary of the Interior.
    I was explaining to them the visit by me and some of the 
members of this panel, this subcommittee, to the Salton Sea in 
January, and the interest that developed as a result of what we 
witnessed with the cleansing through the ponds. Secretary 
Norton had requested $100 million in grant funding, and I was 
questioning here as to whether or not your program would 
comply.
    So, if you could tell the committee, whereby the 
Commissioner and the Secretary can hear what you are saying, 
just briefly something about the program there and what you are 
seeking to do.

                         Mr. Hunter's Statement

    Mr. Hunter. Certainly. Mr. Chairman, thank you. This is 
very kind of you to give me an opportunity just to make a 
statement or two about the sea, and then you might want to 
reflect on that.
    If you are familiar with the Salton Sea, the big body of 
water that is just there north of the Mexican border. It is a 
huge recreation resource for the working folks in California, 
within driving distance of L.A., San Bernardino and the inland 
empire, about 6 percent of the country's population, a great 
fishery, and now, because it does not have an outflow, it has 
become increasingly saline, and the chairman is working to try 
to develop a system that will allow us to arrest the salinity. 
It is now about 40,000 parts per million salt. When it gets to 
60,000, the sea dies and becomes like the great Salt Lake or 
the Dead Sea, and so we are working that problem hard.
    It is fed by the New River, which flows north from Mexico 
for about 60 miles and goes into the south end of the sea. It 
is basically run-off water from the agricultural operations in 
the Mexicali Valley in Mexico and the Imperial Valley in the 
United States, and it brings in a lot of sewage effluent from 
Mexicali.
    These marshes, we have come up with this way of cleansing 
the New River, which is now considered the most polluted river 
in the country, by flowing it through a series of marshes, 
which do extract contaminants. And we have got our first 
marshes in place--it is a great project done by the Bureau of 
Reclamation with a group of ours called Desert Wildlife 
Unlimited who built the watering holes for the big horn sheep 
out in the Valley.
    This process, as the chairman noted when he was out there, 
extracts about 97 percent of the contaminants by flowing the 
river, pulling water out of the river, flowing it through 
marshes and then down into the river. Our goal is to have 60 
miles of wildlife marshes, which would be an enormous expansion 
of wetlands and provide great recreational opportunities, and 
would clean that water before it gets into the Salton Sea.
    We still have, of course, a salinity problem with the sea, 
and we need your help to continue to work a program to arrest 
that salinity at about 40,000 parts per million. Otherwise we 
are going to obviously have a Dead Sea in a matter of years.
    So, Mr. Chairman, thank you, and I look forward to working 
with you on this project.

                        Salton Sea Alternatives

    Mr. Callahan. Do you have any response, either of you, to 
what I said and he said with regard to this, as to some 
direction we, as a committee, could take to assist in this 
matter? Do you have any suggestions?
    Other than the $100 million he asked for. [Laughter.]
    Mr. Keys. Mr. Chairman, I would say that we put about $2.5 
million during 2002 into the demonstration project that Mr. 
Hunter was talking about, and we have monies in 2003, about a 
million, to follow up on that.
    That is one of the alternatives that we are looking at to 
try to do some good there in the Salton Sea, but there are a 
number of others that we are also considering. During this 
year, 2002, we expect to identify a number of alternatives to 
consider there. I would propose that we bring that report toyou 
and walk through it with you to show you what those alternatives are, 
and then let us try to make a decision among us on what is the best way 
to go on it.
    Mr. Callahan. The big question here is whether or not this 
committee should earmark some money specifically for this 
project in our instructions or suggestions to you in the report 
language so we could really expedite the additional ponds that 
they are suggesting. We need to get this thing through the 
study phase and into a reality phase, and we need your 
cooperation, as well as your cooperation, Madam Secretary, to 
expedite the additional areas of potential there.
    Secretary Norton. Mr. Chairman, we are studying from a 
senior management level what to do with the Salton Sea issue 
and have not yet reached any final conclusions. We also have a 
Fish and Wildlife Service refuge that is in that area, and part 
of the Cooperative Conservation Initiative that I mentioned 
does go to the Fish and Wildlife Service for cooperative 
activities in its area. We have both the State side of that 
program and the Fish and Wildlife Service side of that program 
available for helping to build partnerships to help address 
issues of that nature.
    We also have a $56 million increase in the funding for the 
Fish and Wildlife Service refuge operations nationwide. Again, 
while that does not specifically address the Salton Sea, those 
are resources that, as the Fish and Wildlife Service is 
involved in looking at these issues, we might be able to draw 
upon to help resolve issues there as well.
    Mr. Callahan. Well, and I know that there is additional 
money for studies, but, if the levels of purity are increased 
from 6-percent to 97-percent purity under this pilot program 
that is taking place, I do not know why we need a study to 
determine whether or not this is contributing to the betterment 
of the Salton Sea.
    Maybe there are other alternatives. Maybe there are more 
rapid alternatives, but this is the only thing that I have seen 
that is making any significant improvement in the quality of 
water pouring into the sea. In any event, maybe the solution is 
for you and the Commissioner to get with Congressman Hunter and 
then back to us and suggest what we can do to facilitate your 
two agencies into providing the resources that are necessary to 
expedite or to expand greatly the progress that has already 
been developed there, a lot of it with local money and with 
local contributions of time and effort. That is what we ought 
to encourage.
    Mr. Pastor. Will the gentleman yield?
    Mr. Callahan. Sure.

                  Mr. Pastor's Comments on Gila River

    Mr. Pastor. The Corps of Engineers, in cooperation with the 
Bureau of Reclamation, has an ongoing demonstration project in 
the Gila River, which is west of Phoenix, Arizona, and they 
have taken effluent water and other waters and have been 
dealing with marshes and other vegetation in the effort to 
reclaim water so it can be used for other purposes. So I would 
suggest to the Chairman and extend an invitation to you and 
Congressman Duncan Hunter that it might be something that you 
want to look at, and assist to move the project faster, because 
this demonstration project has been in existence for at least 4 
years that I know of, and it has been very successful. And so I 
bring it up to your attention because it may be something that 
you may want to look at.
    Mr. Callahan. Well, it is something that I, personally, am 
interested in, and I need some suggestion from the two of you 
as to what we can do to expand this program here and in 
Arizona, because these are proven projects. And while we go 
through study, after study, after study trying to find a better 
way, why not go ahead, in some manner, and expand what we know 
is working. It may not be a total solution, but it is a step in 
the right direction.

                               SALTON SEA

    So I appreciate the indulgence of the committee. 
Congressman Hunter, we will certainly look at your request. He 
floored me yesterday when he suggested $100 million.
    Mr. Hunter. I like to come in low, Mr. Chairman. 
[Laughter.]
    Mr. Callahan. Thank you very much.
    Mr. Hunter. Mr. Chairman, thank you very much, and to my 
colleagues, thanks for indulging me in this opportunity to come 
in and talk about this important issue. Thank you, Madam 
Secretary. I look forward to working with you. Appreciate it.
    Mr. Callahan. So will you, the two of you or your staff, 
begin working with Congressman Hunter to submit something 
suggesting to us as a committee as to which direction we ought 
to take on this?
    Secretary Norton. We will be happy to talk with Congressman 
Hunter about that. I, again, caution that this is an issue that 
involves the water rights or the water usage of the irrigators 
and of the municipalities in that area, so it has a lot to do 
with the allocation of water as we try to move into the 4.4 
plan, and so it is complex in many aspects.
    Mr. Hunter. Mr. Chairman, may I make a comment on that. I 
will not ask a question, but make a comment on that point.
    With respect to the sea, the Salton Sea, and what is going 
to happen with that big basin of water when water transfers are 
made from the Imperial Valley to the metropolitan areas, the 
sea receding and thereby becoming more saline is an issue that 
obviously involves water rights' aspects of the transfer and 
also the environmental issues that are driven by that.
    But for the New River, this river that flows out of Mexico 
and flows into the sea, the ponds that we are building, the 
marshes we are creating, the wetlands we are creating have no 
such ramifications. Whether that is more water or less water, 
it is still very dirty water with all of that sewage in it. And 
so pulling the sewage pollution out of that water accrues 
nobody's detriment.
    The issues of the sea receding and the water transfer is an 
issue, and that is one issue, Madam Secretary, that you folks 
are going to need to look at because the Imperial Irrigation 
District has been sued in the past for not conserving water, 
that is, for not lining its canals, not having pump-back 
systems for the irrigation, and they now are going to be doing 
those things and sending some of that conserved water to the 
cities.
    They are now threatened with being sued if they do conserve 
water because environmentalists are saying you have to keep 
putting that runoff water into the sea to keep the sea high. So 
we are going to sue you for billions if you start conserving 
water, and you have got the cities saying we are going to sue 
you if you do not conserve water.
    And we have legislation that says that we have got a 
limited amount of liability to accrue to these agencies. 
Ifthese agencies are bankrupted by lawsuits, there is not going to be a 
transfer. In fact, their contracts of transfer all have conditions in 
them saying if our liability for the environmental impact goes over $20 
million in the case of the IID, and I think it is $10 million for 
Metropolitan, we are out of there. The contract is dead.
    So it is very important for everybody that needs water and 
also likes conservation in California to support some 
limitation of liability because these guys are caught in a 
vice. They are going to be sued if they conserve, they are 
going to be sued if they do not conserve. So we need your help 
there too.
    Thank you, Mr. Chairman, for that time.
    Mr. Callahan. It might be an interesting trip for this 
subcommittee to take. I know that we are going to look at some 
projects in Arizona, and we are going to look at some projects 
in Southern California. So maybe it would be a good idea for 
the committee to witness what some of us saw this past January.
    In any event, if you all will contact Congressman Hunter, 
and if you all then will give to us some suggestion as to where 
we can get the money, how much money is really needed to 
expedite the expansion of this program, it will be appreciated.
    Thank you, and thank you, Mr. Edwards.
    Mr. Edwards. Thank you.
    Mr. Chairman, before Mr. Hunter leaves, I just want to 
point out, in fairness to him, that any of our colleagues who 
might think $100 million is asking for a lot, for these Armed 
Services Committee guys, that is a rounding error. [Laughter.]
    Mr. Hunter. I would never say one fighter aircraft. 
[Laughter.]
    Mr. Edwards. Thank you. I was going to yield more time of 
my time, if the gentleman needed it, to finish any statements.
    Mr. Hunter. No, I appreciate it. Again, I thank my 
colleagues for the indulgence, and thank you, Mr. Chairman, and 
you, Madam Secretary.
    Mr. Edwards. Thank you.

                      Mr. Edward's Opening Remarks

    Secretary Norton, Commissioner Keys, thank you both for 
being here and for all you do. A lot of Americans do not 
realize the incredible impact of this Department, this Agency 
upon so many lives.

                      LONG-TERM WATER SUPPLY STUDY

    I would just like to ask a broad question. We have the Army 
Corps of Engineers that has responsibilities for flood control. 
The Bureau of Reclamation certainly has a multiplicity of 
roles, one important one is obviously water supply. Do you and/
or the Army Corps of Engineers work together or have you or has 
anyone in the Federal Government done any kind of a long-term 
study of where our Nation is in terms of water supply? To bring 
it back to the very, very basics, our population is growing 
very significantly. I do not know the exact numbers over the 
last 10 years with the new census, but it was a significant 
increase.
    To my knowledge, the Army Corps of Engineers, in most areas 
of the country, and the Bureau of Reclamation are not building 
new dams. Have we done studies to determine that water 
conservation and other efforts are going to be enough to 
provide the water needs for our country 20 years from now, or 
is there no one Federal agency with the responsibility to look 
at those long-term water needs, not just for the Western 
States, but for the entire country?
    Secretary Norton. We have certainly been giving thought to 
that from our own Department's perspective, and we work with 
the Bureau of Reclamation on a lot of things; for example, on 
our security issues. We have worked jointly on 
counterterrorism, but I am not aware of any sort of Nationwide 
study effort.
    John?
    Mr. Keys. Mr. Chairman, Mr. Edwards, we work very closely 
with the Army Corps of Engineers. The Secretary talked about 
the security things. Reclamation, the Corps, and TVA have 
cooperated to the ultimate in the challenges that have been put 
before us over the past 6 months.
    We work regularly with both of those agencies on our Safety 
of Dams program. We work in the Pacific Northwest and the 
Western United States with them on environmental issues so that 
our facilities are coordinated and so forth. So we work very 
closely with them now.
    In taking a look into the future, there have been some 
studies in the past. There was a Western Water Policy Review; I 
just deal in the 17 Western States, but that is the study that 
we worked with a lot of agencies a few years ago in looking at 
what water policies we need to take us into the future.
    There are other agencies that we work with, also. We work 
very closely with the USGS, Geological Survey, in our own 
Department, and the Environmental Protection Agency.
    Mr. Edwards. It sounds like maybe in your 17 States you 
look at, perhaps, long-term water needs. If there is a report, 
I would love to see a copy of that. In the House we are 
reelected for 2-year terms, the Secretaries are appointed 4 
years or 8 years, if they serve out their full terms. I am just 
wondering who, in our Government, is looking at 20-year or 30-
year water needs.
    With Ms. Roybal-Allard here, I should probably be hesitant 
to use the California energy situation as an analogy because 
there were a lot of complicated factors and different causes 
for their shortage, but to some there was a fundamental supply/
demand problem. You had a growing economy and a growing 
population in California, but energy capacity was not being 
increased.
    I see the same thing nationally, whether that analogy is 
good or not, I see that occurring nationally. We have got 
millions of new Americans in the population, and yet I do not 
know when the Army Corps of Engineers built a new dam to 
collect water. I do not know how many you have built in the 
last decade or so or how many are planned for the next decade 
in terms of water supply. At some point, supply and demand 
catches up to you.
    Are we going to drain our aquifers? Perhaps there is a 
report that says we can have so many improvements in the 
efficient use of water through conservation, retreating water, 
to solve the problem. I have just never seen anyone in the 
Government look at, or maybe I hoped someone had looked at 20-
year water needs for the country, just drinking water, if 
nothing else.
    Are we adequately prepared for that? If not, I would think 
the Army Corps of Engineers, and the Bureau of Reclamation 
would be two agencies to play some role in encouraging a long-
term water supply need for the country.
    Secretary Norton. I think your point on needing to plan 
ahead is a very good one, and I think there are many areas 
ofthe country that are beginning to realize that water is an issue that 
really needs to figure into their planning processes.
    There is a National Academy of Sciences study of water 
resources research that is going to commence. The USGS is 
currently working on the scope of that and expects to finalize 
a contract in May of this year with the National Academy of 
Sciences. I need to find out whether that addresses the kind of 
question you are posing.
    Mr. Edwards. I realize this is not exactly your 
responsibility, but if you could have your staff follow up on 
that, I would be interested to hear about it.
    Secretary Norton. I would be happy to do that.
    [The information follows:]

                     Long-Term Water Supply Studies

    In the FY 2002 appropriations language for the Department of the 
Interior, House Report 107-103, the Congress directed the U.S. 
Geological Survey to ``prepare a report describing the scope and 
magnitude of the efforts needed to provide periodic assessments of the 
status and trends in the availability and use of freshwater 
resources''.
    The Congress also directed USGS to contract with the National 
Academy of Sciences ``to examine water resources research funded by all 
Federal agencies and by significant non-Federal organizations'', and 
``to consider the level and allocation of resources that are currently 
deployed in water research programs, both Federal and non-Federal, and 
provide recommendations for a national research program that maximizes 
the efficiency and effectiveness of existing programs. While the 
primary focus of this study deals with the existing research agenda, 
the managers would like an answer to the question of whether the Nation 
is making an adequate level of investment in water resources 
research'', H. Report 107-243. USGS is negotiating a statement of work 
with the National Academy of Sciences National Research Council 
regarding the content and scope of the requested study. The completed 
study will probably not be available for another 2 years.

    Mr. Edwards. Thank you. Thank you, both.
    Thank you, Mr. Chairman.

                  Mr. Callahan Calls for Short Recess

    Mr. Callahan. There is a vote on the floor, which is why 
all of the members left, but I am going to have to run and 
vote, too, Madam Secretary. I hate to have you sit here idly 
during this 10 or 15 minutes it takes to get over there and 
back, but with your indulgence, we are going to have to recess 
for just a second. We will be right back.
    [Recess.]

                  Mr. Frelinghuysen's Opening Remarks

    Mr. Frelinghuysen [presiding]. Madam Secretary, good 
morning still. Chairman Callahan has allowed me to ask a few 
questions as he comes back from the vote.

                   New York and New Jersey Highlands

    Good morning. Thank you for being here. I apologize for 
being late. I would like to discuss an issue unrelated to the 
Bureau of Reclamation. It is probably as far away from the 
Salton Sea as you can possibly be, but since I have the 
microphone and the gavel, I guess I have the right to talk 
about a land preservation project in both New York and New 
Jersey known as the New York and New Jersey Highlands.
    This, in our part of the Northeast, is one of the most 
threatened and one of our most important watersheds for people 
in the New York-New Jersey region. We are talking about 4 
million people. And this is basically a forested property area 
that is under the gun in terms of development, and certainly 
our States combined, at least in my region, are probably the 
most densely populated part of the U.S. In the Northeast, as 
you are aware, we are undergoing drought conditions all up and 
down the East Coast. I guess with the exception of Florida, we 
have had some incredible problems.
    Currently, the U.S. Forest Service, is updating a study of 
the New York and New Jersey Highlands region, and the draft is 
due to be released in mid-March. Last year, in the Interior 
appropriations bill, the committee requested that both the 
Departments of Interior and Agriculture review the findings of 
the study, and I quote, ``Report to the Appropriations 
Committee on ways in which the Federal Government can partner 
with State, county and private efforts to preserve critical 
lands within this national significant area in the Northeast.'' 
It has been recognized nationally by the Federal Government, 
actually, since the early 1990s.
    Besides the fact that we would love to have you come to the 
region, I was hoping that you would perhaps briefly comment on 
our hopes and aspirations to preserve as much of this area as 
possible.
    Secretary Norton. Thank you, Congressman.
    It is my understanding that we have been working with the 
Forest Service and exploring options on this approach. I would 
be happy to come, when my schedule allows, to take a look at 
the area.
    We are trying to work on a number of different cooperative 
approaches for preserving areas of environmental benefit, and 
some of the programs that we are discussing in our overall 
budget proposals, like our Cooperative Conservation Initiative, 
might be helpful in this area. Recognizing the need for 
preservation of resources on private lands have also pursued, 
in some other areas, conservation easements or agreements so 
that the resources can be preserved in a cooperative way, 
working with States and local Governments.
    So there are a whole array of different options thatmight 
be brought to bear to design something that would be appropriate for 
the area.
    Mr. Frelinghuysen. We would welcome your participation and 
your assistance in taking advantage of any of those options. We 
know that around the country, not in the Northeast, there is 
lot of resistance. But in the East, where we are under so much 
pressure, and where certainly a massive part of our population 
lives, we salute the work you do, and we would love to have 
your greater involvement and assistance.
    Thank you.
    Secretary Norton. Thank you.
    Mr. Frelinghuysen. Mr. Visclosky?
    Mr. Visclosky. Thank you, Mr. Chairman.

                   Operation and Maintenance Backlog

    Mr. Commissioner, what is your critical maintenance backlog 
on O&M for hydroelectric faciliteis at your dams? Do you know?
    Mr. Keys. Mr. Visclosky, we take great pride in our power 
plants. To the best of my knowledge, we do not have a backlog. 
We use our monies judiciously to keep those up. We have 
agreements with Bonneville Power Administration in the 
Northwest, where we use their monies up front to do that work. 
We are currently working on the same sort of agreements with 
Western Area Power Administration so that we have those monies 
at the time we need them to keep our power facilities up-to-
date and on-line.
    Mr. Visclosky. So you do not have an O&M backlog then?
    Mr. Keys. For our power plants, that is correct.
    Mr. Visclosky. Let me ask you this: If you had additional 
funds, what improvements or investments could be made at some 
of these Federal facilities to improve their efficiencies?
    Mr. Keys. Mr. Visclosky, there are a number of things that 
we could do, of course. We are currently looking at a number of 
additions, upgrades, rewinds and that sort of thing for our 
system as part of the President's energy policy. We are looking 
at a thing in California, at Folsom, called a ``powerformer,'' 
where we get away from having to have the oil-filled 
transformers at the facilities. Certainly we could speed this 
up. We are looking at the possibilities of putting small power 
plants on those facilities we have that do not have power 
plants on them.
    So we could make use of additional monies in upgrading, 
rewinding, and speeding up some of the programs that we are 
working on now.
    Mr. Visclosky. Mr. Commissioner, could you provide for the 
record a list of these potential projects, what their cost 
estimate, what their benefit would be.
    Mr. Keys. Yes, sir, we can do that.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T9478A.637
    
    Mr. Visclosky. I appreciate that. Last year we had an 
amendment for the Corps to try to facilitate some of these 
improvements in the area of energy efficiency, so I appreciate 
that.

                 Counterterrorism and Physical Security

    Madam Secretary, on counterterrorism and physical security, 
in the supplemental, I believe we had $31 million, and your 
stated need was $75 million. In this year's budget request, it 
is $26.6 million. What is your unfunded need, as far as 
security and counterterrorism?
    Secretary Norton. This is primarily one that would allow us 
to provide the ongoing personnel needs for security at our 
dams. That has been the primary need, and so we have increased 
the manpower, and this would allow us to continue that.
    Let me turn to John Trezise to provide you some more detail 
with that.
    Mr. Trezise. Thank you, Secretary Norton.
    Mr. Visclosky, the 2003 budget for the Bureau of 
Reclamation basically continues the recurring activities which 
were funded as part of the counterterrorism supplemental such 
as additional guard service, physical security improvements.
    I think it does enable us to maintain that level of 
security. The Commissioner may want to address----
    Mr. Visclosky. But for the supplemental, $75 million were 
identified. You got $31 million, which left you $44 million, 
and you have asked for $26 million.
    Secretary Norton. Let me ask the Commissioner to address 
that. I think I know where some of that is.
    Mr. Keys. Mr. Visclosky, the $75 million was our first shot 
out of the box at what it would take over a long term to get 
done. The $30 million that we are operating under this year got 
us started with getting the proper law enforcement people at 
the facilities, and paying salaries and so forth. It started 
the re-review of all of the security programs for every one of 
our facilities, and those are underway at this time.
    They are being approached in a tiered approach. In other 
words, those most visible and prominent facilities are being 
addressed first, like Glen Canyon Dam, Hoover Dam, Shasta Dam, 
Grand Coulee Dam and so forth. The review of those security 
plans and needs will go all the way to the bottom dam; in other 
words, the small diversion dam out there. We do not know a lot 
of the changes that would be necessary or additions that we 
would have to do. The $26 million that we have in the 2003 
budget lets us continue those security reviews, and actually we 
would finish them up at the end of 2003 so that our 2004 
proposal would include those changes or additional monies that 
we might need.
    Mr. Visclosky. Have you, in your studies to date, 
identified physical changes that would need to take place,over 
and above law enforcement officials, that if you had the additional 
monies for security, you could make that investment in 2003?
    Because I assume, recognizing there are different values 
placed on assets, as well as different levels of threat, that 
you would obviously have higher priorities and lower 
priorities. On that scale, have you identified some projects 
that will need to be accomplished and undertaken?
    Mr. Keys. Mr. Visclosky, we identified some additional 
things early on to do at some of the facilities, like remote 
television cameras, more lighting, some bollards. Bollards come 
up out of the ground to prevent traffic from going into areas 
that we are already implementing. These activities are being 
done within this funding that we have for 2002. We can do these 
activities within the monies that we have requested for 2003. 
Again, when we get through with the studies of security for 
each one of the facilities, we would then come back with those 
additional needs.
    Secretary Norton. As the Commissioner is stating, most of 
the kinds of things we are talking about for dams are fairly 
small in terms of the capital investments. It is more the 
personnel kinds of issues. There are a few things that are 
related that are high-price tag, such as at Hoover Dam, the 
proposal to construct a bridge that would, instead of having 
traffic go on the top of the dam itself, would have a separate 
bridge built. That is obviously a Department of Transportation 
funding issue. We are supportive of that taking place.
    Mr. Visclosky. There was some discussion like that for 
Folsom Dam, if I remember, also.
    Secretary Norton. That is correct, yes. So there are those 
kinds of things, but as to the dams themselves, we are looking 
at personnel issues. One of the things that we want to explore 
is reaching agreements with other Federal law enforcement, or 
State, or local law enforcement agencies to perhaps provide 
some of the guard services, or cooperative law enforcement, 
that might meet those personnel-type needs. So we are exploring 
a number of options.
    Mr. Visclosky. Money, obviously, is very, very tight. But 
if there are a couple of things that have been identified over 
and above the 26.6 million, if you could identify those for the 
record, because I would just hate, again, if the resources are 
available, to defer for another year, if it is possible to take 
some action, but I appreciate your responses.
    Thank you, Mr. Chairman.
    [The information follows:]

       Additional Funding for Site Security or Counter Terrorism

    The Bureau of Reclamation's budget for FY 2003 provides for $26.6 
million for physical security and counter-terrorism needs. At this 
time, we believe that amount of funding is adequate to carry out plans 
for that activity.

    Mr. Callahan. Mr. Pastor?
    Mr. Pastor. Thank you, Mr. Chairman.

                      Mr. Pastor's Opening Remarks

    First of all, let me compliment the Bureau for the rapid 
response you have undertaken to protect our great 
infrastructure in the West, and I want to thank you for it.

                           TRES RIOS PROJECT

    Let me go back to a conversation we had with Congressman 
Duncan Hunter and with the chairman. As you know, the Bureau 
has been very active in Phoenix with the Tres Rios project, 
where we are working with and reclaiming effluent. About 3 
years ago, we do not know how, but we had a beaver show up, and 
most recently we had to relocate a whole family and more 
because they found it ideal, living conditions.
    We are of taking water that may not be usable, effluent 
water that has been contaminated by agriculture use, and going 
through a process that will restore the quality of the water 
and make it usable again for various purposes and at the same 
time restore, reconstruct and reclaim the environment and the 
water. I know that last year we had half a million dollars in 
the Tres Rios Project, and we wish to continue it, because we 
think it has become a model for how the Bureau of Reclamation 
and how other entities, cities, counties, can reclaim water.
    Basically, the question is, to continue this project for 
fiscal year 2003, what is your best estimate that would allow 
us to continue that?
    Mr. Keys. Mr. Chairman, Mr. Pastor, we currently have 
$200,000 in our proposal that would be matched by the City of 
Phoenix. So we have about $400,000 of authority there for 2003.
    Mr. Pastor. I would extend an invitation to the chairman, 
and the ranking member, and the committee members, as you have 
said, you may want to go into Arizona. I would suggest that we 
look at this model project because I think it is going to be 
used. I think in Tucson they are looking at this model to 
reclaim water down in Southern Arizona in one of the rivers.

                       HOOVER DAM VISITORS CENTER

    As I compliment you on the security for Hoover and Glen 
Canyon Dams in Arizona, I also must give you some constituent 
concerns. I have been meeting with my constituents, and mainly 
they are the power users, they are the water district users, 
and I will try to lay a foundation.
    I have been told that the Visitors Center is now closed, 
for all practical purposes, at Hoover Dam.
    Mr. Keys. No, sir.
    Mr. Pastor. Well, I have been told that you can no longer 
take the $20 tour, and that it has been said never again will 
we do the $20 tour, which was, I guess, our biggest money 
maker.
    Mr. Keys. Mr. Pastor, prior to September 11th, we had two 
different levels of tours into the dam. One of them was called 
the ``Hard Hat Tour'' that you are talking about.
    Mr. Pastor. The Hard Hat tour, right, the $20 one.
    Mr. Keys. And it took people down into the very bowelsof 
the power plant and the dam, into places that even in good times there 
was not a lot of comfort there, and there were some protections put in 
place.
    With the events of September 11th and the recommendations 
from Sandia Natural Laboratory and so forth, that tour was 
closed. The Visitors Center itself was reopened about 3 weeks 
after September 11th. In December, we reopened a tour of the 
dam, and it is a much shortened tour that is not the Hard Hat 
tour. So there is only one tour available now.
    Mr. Pastor. But that was one of the means that we were 
using to help finance the Financial Center, the construction of 
the Visitors Center, excuse me. And I was told, and I am not 
blaming you because it was not on your watch, that it was about 
$100 million over budget, the construction of this Visitors 
Center.
    Mr. Keys. Mr. Pastor, I do not know the figure exactly, 
but----
    Mr. Pastor. But it is in that ballpark.
    Mr. Keys [continuing]. It is probably in the ballpark.
    Mr. Pastor. It is in that ballpark.
    Mr. Keys. Your assumption that revenues from the Visitor 
Center were going to try to pay for that is correct, also.
    Mr. Pastor. What I am trying to establish, Mr. Chairman, is 
15 years ago, 12 years ago, the agreement was made that the 
revenues generated by the Visitors Center would pay for the 
cost of constructing the Visitors Center, and at that time I 
think the estimate was that $23 million would be the cost to 
build the Visitors Center. Because they found that, in order to 
build a Visitors Center and elevators in that beautiful 
structure that we have up there where the flag is, that cost 
grew to about $100 million for the Bureau. Now, with the 
enhanced security, with the cost growth, they are going back to 
the users and saying you have to ginnie up. And they are 
saying, well, the problem is that we did not ask for the 
overruns, and now that the tour, and as you heard, the $20 
tour, which was the money maker, at least the potential of 
making money, is no longer available, that we are losing or we 
probably will lose revenues in that particular area.
    Mr. Keys. Mr. Chairman, Mr. Pastor----
    Mr. Pastor. And I am not blaming you. I am just bringing it 
up because they have come to me and are asking for solutions.
    Mr. Keys. Sir, your folks are asking the same questions 
that we are asking ourselves right now. Before September 11th, 
we were generating about $14 million a year in revenue from 
visitations to the Visitors Center and in those tours there. 
Since September 11th, since we have been back into operation, 
it appears that that is going to be cut about in half.
    We are struggling right now with how to accommodate that 
difference in income. The payment of security, the additional 
security after September 11 is something that we are also 
taking a hard look at.

                ADDITIONAL SECURITY COSTS AT HOOVER DAM

    Mr. Pastor. How much money do you think the additional 
costs are just for security on Hoover Dam since 9/11?
    Mr. Keys. I can get you a figure for that because I do not 
have that right on the tip of my tongue, but Reclamation is 
different from a lot of the other agencies in that a lot of our 
expenditures are reimbursable, as your folks are telling you 
from the hydropower side. The same is true of a lot of our 
irrigation facilities.
    [The information follows:]

                Additional Security Costs At Hoover Dam

    There have been extra security related expenses for FY 2002 for 
Hoover Dam that have been required after the September 11, 2001 
terrorist atacks. These costs include the following in FY 2002: 
$1,052,000 for non-law enforcement personnel costs, $2,959,000 for law 
enforcement personnel costs, and $1,047,000 for security related 
equipment and enhancements. The total of these additional security 
costs in FY 2002 is $5,058,000. Additional security costs are expected 
to vary in FY 2003 and beyond.

     Mr. Keys. We are now looking at the reimbursability of all 
of those monies and have asked those questions of our 
solicitors and have not received an answer yet, but we are 
taking a hard look at it. The lack of income there at the 
Visitor facility is part of that look that we are doing at what 
security is costing us.
    Secretary Norton. If I can also add, since I went to see 
Hoover Dam and the new tour that was reopened. It still allows 
visitors a great opportunity to see inside the dam and to see 
the power facilities and so forth. It is still a very 
worthwhile tour for people to do, but it avoids the security 
concerns that we had with the Hard Hat Tour. I amcomfortable 
that we are now at the appropriate level of balancing visitor interest 
versus the security, and I do not anticipate that changing.
    Mr. Pastor. I think the concern is, again, that because 
added security is bringing additional cost, the tours have been 
modified so that the revenues that would have been generated 
are lessened, that now you have additional cost that you say is 
reimbursable. But the bodies that you may look to are saying, 
``We are pretty maxed out of what we can do, and we may not be 
the purse to be able to fund these,'' and so you get, and I 
will make them available in the record, resolutions coming out 
of various agencies. This is the Colorado River Energy 
Distributors saying that we need to look for unreimbursable 
monies to be paying for these shortfalls. Another resolution 
that comes from the Colorado River Energy Distributors, again, 
resolving to the same conclusion.
    I will make, for the record, a letter that explains that 
back in the 1940s, when we were involved with the bombing of 
Pearl Harbor, the Bureau of Reclamation had to deal again with 
security issues at Hoover and other dams, and at that time the 
Commissioner was asking for nonreimbursable funds. So I think 
that our constituents are going to be looking to us to see how 
we could find nonreimbursable funds to meet these added needs 
that we have at the Hoover Dam and other facilities.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T9478A.638
    
    [GRAPHIC] [TIFF OMITTED] T9478A.639
    
    [GRAPHIC] [TIFF OMITTED] T9478A.640
    
    [GRAPHIC] [TIFF OMITTED] T9478A.641
    
    [GRAPHIC] [TIFF OMITTED] T9478A.642
    
    [GRAPHIC] [TIFF OMITTED] T9478A.643
    
    [GRAPHIC] [TIFF OMITTED] T9478A.644
    
    [GRAPHIC] [TIFF OMITTED] T9478A.645
    
    [GRAPHIC] [TIFF OMITTED] T9478A.646
    
    Mr. Keys. Mr. Pastor, we will keep working with them, and 
as the decisions are made on whether they are reimbursable or 
not, we will keep you informed so that if we need some help, we 
will know where to come for it.
    Mr. Pastor. I am sure you will and they will keep us 
informed.

                         REORGANIZATION OF BIA

    To the Secretary, welcome, and congratulations on your 
appointment. Again, a concern that does not deal with the 
jurisdiction of this subcommittee, but my tribal leaders have 
come over to see me a number of times now, and they want to 
work with you in the reorganization of BIA. And they are asking 
that they be allowed to provide more input, share some of their 
knowledge, so that the BIA, in its restructuring, there will be 
an opportunity for them and for you. So I just bring it to your 
attention because they have asked me to bring it to your 
attention.
    Secretary Norton. Thank you. We do look forward to working 
with them. We have a task force of tribal leaders that is 
analyzing a number of different options for reorganization. We 
want to get the tribal input and we are working to get that, 
but we would certainly look for any other avenues you might 
suggest.
    Mr. Pastor. Thank you very much.

                HOOVER DAM VISITORS CENTER COST OVERRUN

    Mr. Callahan. Just a brief observation. I cannot fathom a 
$100-million cost overrun over $23 million. Number one, I guess 
everybody in their lifetime has visited the dam and visited the 
Visitors Center, but I cannot fathom how there could possibly 
be $100-million cost overrun, and I suppose that the solution 
to that, Ed, would be to ask GAO to give us a report on how a 
cost overrun of that respect, of that degree could possibly be 
a reality.
    We would ask, Bob, if you all would ask GAO to give us a 
report on the proposed cost overrun and the funding as well. 
You cannot enter into a contract with people, based upon an 
assumption that is existing, and then remove the capability of 
funding and expect them to pay for it. We cannot do that. You 
do not do that anywhere, and you are going to be facing some 
liability suit if you do.
    But that is something we, first, I think must find out 
where we are going with respect to this $100 million, and what 
it is for, and then ask GAO to give us an accountability of how 
we fund this, even the first $23 million.
    Secretary Norton. I believe that there has already been 
some GAO analysis of the construction. We will be happy to 
collect that information and provide some more information to 
you.
    Mr. Callahan. Very good.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T9478A.647
    
    Mr. Callahan. Mrs. Roybal-Allard?

                  Ms. Roybal-Allard's Opening Remarks

    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    Welcome, Madam Secretary and Commissioner.

                          CALIFORNIA 4.4 PLAN

    As you know, California is in a situation right now where 
it has to reduce its use of the Colorado River and its 
dependence on that water. The Department of Interior is playing 
a key role in the implementation of the plan that has been put 
forward. Could you please tell me what the status of that plan 
is, whether you think that California will be able to meet that 
deadline, and also if there are any budget implications with 
regards to implementing the plan?
    Secretary Norton. The Assistant Secretary for Water and 
Science, Bennett Raley, as well as John Keys, have been working 
closely with the entities in the Southern California area on 
the 4.4 plan, as well as other California water issues, 
including CALFED. So we are working very closely with all of 
those groups. Obviously, it is a difficult challenge because we 
are trying to make scarce water go more different ways, but we 
will work with them.
    I believe that the 4.4 plan is something that has to be 
done. We have to continue carrying out that process. I think 
that the process that has been arrived at over the work of the 
last several years is something that we want to continue 
because it has reached the right kind of balance.
    Ms. Roybal-Allard. So, at this point, you do notanticipate 
any problems in being able to, what is it, a 15-year----
    Mr. Keys. Excuse me. It is a 13-year program.
    Ms. Roybal-Allard. We now have a 13-year program?
    Mr. Keys. There is a definite schedule laid out within that 
13 years, and so far we are on schedule. Are there problems? 
Yes, ma'am, there will be problems all the way along that we 
will work very closely to solve, but so far we are on schedule. 
The first report is due out in April, and everything set forth.
    I would sum up the commitment that we have to the 4.4 plan 
in saying that ``failure is not an option.''
    Ms. Roybal-Allard. Especially for California. I think you 
are aware of the impact it would have on California if we are 
not successful.

                           TITLE XVI PROGRAM

    One of the efforts that California has undertaken towards 
reducing its reliance on Colorado River water has been its 
recycling and reuse projects. That is why I am concerned that 
there is a significant decline for the Bureau's water recycling 
and reuse projects in the budget request.
    In California, this has helped us to be able to increase 
our use of water for such things as watering grass and golf 
courses. Businesses depend heavily on that water because it is 
reliable and something that they can use. In fact, 30 percent 
of the water in Los Angeles County is currently recycled water. 
My understanding is that one of the barriers to even greater 
use of recycled water is the lack of infrastructure.
    I am a little confused. Being that we have this goal, I am 
not sure I understand why the Department budget does not 
reflect the need to continue to have recycling and reuse 
projects.
    Mr. Keys. Ms. Allard, the Title XVI program is very 
important to us. We are right now trying to finish up those 
projects that we have already started. Certainly, the request 
that we have made in this year's budget or appropriations 
request is almost the same that we made last year, even though 
the funding that we received was more.
    Basically, we are trying to stay within the limitations of 
a limited budget by making that same request that we made last 
year.
    Ms. Roybal-Allard. To pay for all of the Title XVI projects 
that are currently underway, what amount would you need?
    Mr. Keys. My financial manager just told me that we are 
ahead of schedule there, so that our numbers are not quite 
correct. We could provide that for the record for you.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T9478A.648
    
    [GRAPHIC] [TIFF OMITTED] T9478A.649
    
    Ms. Roybal-Allard. Thank you. But you do understand my 
concern, given the situation that California is in and the 
importance of these projects in helping us to meet that 13-year 
goal that we have.
    Mr. Keys. As I said, the Title XVI program is very 
important to us. We have said many times that our wastewaters 
and the recycling programs are our river to tap for the future. 
They are important to us, but they are also very expensive, and 
the cost share program just takes lots of money through our 
program. We have to manage that through our appropriations.

                      SAN GABRIEL RESTORATION FUND

    Ms. Roybal-Allard. Last year the committee transferred 
authority for the San Gabriel Restoration Fund from the Corps 
of Engineers to the Bureau in order to more quickly respond to 
the pending crisis of contaminated water that was moving from 
the San Gabriel Basin into the Central Basin. My understanding 
is that the Bureau has been very cooperative with the local 
sponsors on this project, and I am very grateful for that 
cooperation because it is an important project, and it needs to 
move forward in an expedited manner.
    The groundwater contamination, as you know, was first 
discovered in 1979, and then it was identified by the EPA as a 
Superfund site in 1984. However, the inaction that had taken 
place over the past few years had allowed the contamination to 
actually seep through the Whittier Narrows and into a much 
larger Central Basin, which is having a direct effect on my 
constituents. If contamination was to spread further, the funds 
necessary to clean up the Central Basin would certainlybe much, 
much more.
    My question is why there is no request for funds for that 
restoration fund.
    Mr. Keys. Ms. Allard, I would say, first, that the monies 
that were transferred in 2002 from the Corps have been fully 
invested. The problem that we had there was an authority issue. 
We did not get the authority question resolved until after our 
proposed budget was put together.
    The other is, within our current budget levels, we could 
not afford it. We need some extra levels of funding to help us 
out with that.
    Ms. Roybal-Allard. This is, as you know, it is extremely 
important, especially for the local sponsors to be able to 
proceed towards this clean-up. Because if we do not do 
something now, it is going to be far more costly when it enters 
the Central Basin.
    Secretary Norton. If I can also point out I am pleased that 
the Bureau of Reclamation is getting positive feedback on that, 
and we do want to work closely with the people affected. It is 
a pass-through program. This is not our usual area of expertise 
or responsibility, and so it is something that is a little out 
of the ordinary for us.
    Ms. Roybal-Allard. Do I have time for one more question?
    Mr. Callahan. Sure.

                       Bureau's Declining Budget

    Ms. Roybal-Allard. One of the facts that my water 
reclamation districts have brought to my attention is the 
Bureau's declining budget. I understand that since 1990, the 
Bureau's budget has declined from almost $1 billion in 
appropriated funding to this year's request of $805 million, 
which also represents a decrease of $58 million below last 
year's enacted level.
    At the same time, reclamation needs in California and 
elsewhere are rising: reclamation and reuse projects such as 
was talked about earlier; the Salton Sea; CALFED; Bay-Delta; 
environmental restoration; water projects in the Dakotas; 
Columbia and Snake River salmon recovery in the Northwest; and 
even some of the Indian settlements.
    It appears that there seems to be a significant need to 
increase rather than to reduce the Bureau's budget. How does 
the Department plan to deal with these increasing demands on 
the Bureau's budget, and how are you going to prioritize your 
efforts?
    Secretary Norton. I disagree on your math a little bit, but 
that is included within our documents.
    Ms. Roybal-Allard. Okay.
    Secretary Norton. But your overall point is still the same.
    Obviously, we have huge pressing issues that we have to 
balance. As a Nation, on the Executive Branch side, and with 
Congress we have to determine how to meet all of the most 
pressing needs. The Bureau of Reclamation, in its 
responsibilities, has shifted from the time when constructing 
huge dams was its responsibility. Today, the types of 
facilities that we build are still critically important, but 
they tend to be much smaller types of facilities. So we are 
working to try to meet water needs, but in a different kind of 
way in today's environment.
    Ms. Roybal-Allard. Thank you, Mr. Chairman.
    [Clerk's note.--The budget justifications submitted by the 
Bureau of Reclamation state: ``Without the legislative 
proposal, the request is $805.3 million, a decrease of $58.1 
million from the FY 2002 enacted level of $863.4 million.'']
    Mr. Callahan. Mr. Doolittle.

                    Mr. Doolittle's Opening Remarks

    Mr. Doolittle. I hope, Madam Secretary, and Commissioner, 
and ladies and gentlemen at the table, that you will not give 
up on the need to support dams, canals and reservoirs, when it 
makes sense. We certainly have such a situation in Northern 
California at Auburn, where there is about $300 million of 
Federal investment sitting there that could be completed and 
provide flood protection, water supply, recreation, 
environmental enhancement, flood control, et cetera, for the 
region.
    So do not worry about being too politically correct. In 
fact, I wish you would just do the right thing and forget about 
the politics of it. It probably would end up pretty good if you 
would work on that.
    By the way, in my humble opinion, unless and until we enact 
a reauthorization bill for CALFED, I would not waste too much 
of your money on that. A lot of people seem to feel that is not 
going to produce too much in the way of new water for us. I 
would agree with Mrs. Roybal-Allard. I share her concern about 
your budget.

                          California Projects

    There are some very innovative projects going on in 
California. In fact, I think the largest water recycling 
project in the world is down there around El Segundo someplace, 
which is truly amazing to see how that water is reclaimed from 
the sewage treatment plant right next door at Hyperion. It is 
purified. It is more pure than just about any other source of 
water you could get once they are through that process. In 
fact, they have a contract with Chevron, and they provide 
almost completely, 100-percent pure water to Chevron for their 
refinery processes next door. It is truly amazing.
    In fact, as I understand it, in just a matter of 3 or 4 
years, they are expecting to be able to produce, through 
reclamation, about 100,000 acre feet of water. If you are not 
going to give us dams, canals, and reservoirs, then you better 
be giving us some money to work on some of these other things.
    So let me urge you and urge this committee to take a look 
at that. There is some very promising advances. They even 
believe that with a little extra help financially that they are 
capable of desalinating water now. The cost has been cut 
dramatically. It is going to be down to, oh, I think it was 
just under $800 an acre foot of water. Whereas, 10 years ago, 
1990, I think when Santa Barbara was trying it, it was about 
$2,000 an acre foot. So technological advancements have 
dramatically improved the prospects in this area, but they want 
to do a pilot project down there, and that is something I think 
that should be carefully considered and may merit our support.

                             Klamath Basin

    I am going to be representing the Klamath area. Now we have 
had this finding by the National Research Council that there 
was no scientific basis to withhold water from the farmers, but 
our extreme environmentalists accomplished their objectives, 
aided and abetted by the previous administration, and a lot of 
farmers are out of business.
    So my question to you, ladies and gentlemen, is are the 
Klamath Basin farmers going to get their anticipated allotment 
of water this year?
    Secretary Norton. Congressman, we anticipate that they 
will. We have examined the National Academy of Sciences' study, 
and Mr. Keys can talk more about the biological assessment that 
was just released yesterday. I think that that provides some 
encouraging news for the farmers there.
    The National Academy of Sciences basically said that there 
was not much evidence for departing from the 1990's time 
period's regime, from either reducingit below that or from 
requiring more. So we are looking at that 1990's time frame.
    We are also continuing to look at other efforts that can be 
made in the area. We still have the Fish and Wildlife Service 
review coming up as a part of going forward for next year's 
operations. We also have the good news of more water supply 
being available just by virtue of the weather, and so we are 
very thankful that we have that going for us as well.

                       FISH AND WILDLIFE SERVICE

    Mr. Doolittle. Well, let me ask you this: The Fish and 
Wildlife Service has been totally out of control, particularly 
in California, and that is within your jurisdiction. What are 
you doing to change things to bring about a more reasonable set 
of behaviors by the Fish and Wildlife Service in California?
    Secretary Norton. There is a new Director of the Fish and 
Wildlife Service, Steve Williams, who comes to us after having 
been the State Fish and Game director for Kansas. He is a 
scientist himself. He understands the scientific issues. I 
believe he will provide very strong leadership for the Fish and 
Wildlife Service.
    We are looking at ways to strengthen science within the 
Department. I believe it is important that we have the 
principles of peer review, of strong professional standards, 
and a wise allocation of our resources so that we have people 
who are truly qualified as scientists who are making the 
appropriate judgments on our scientific determinations.
    Mr. Doolittle. Do you feel that those changes will be 
sufficient to prevent the next Klamath Basin, where some 
arrogant biologist at the field level decides to make a 
determination that will ruin the lives of hundreds of people 
and put them out of business, cost them millions of dollars? Do 
you feel like enough changes have been made that we will not 
ever see something like that happen again?
    Secretary Norton. Congressman, these issues are difficult 
ones. The Endangered Species Act gives a great deal of 
authority to determinations made at the local level. We are 
attempting to address those issues as we become aware of them.
    I believe that we will have a strong management system in 
place to begin addressing those things. Let me also say that 
there are inherent difficulties in the Klamath Basin and in 
many other areas, where we have over-appropriated water and 
environmental issues on top of that. So I cannot say, with 
assurance, that we will not have Klamath-type difficulties in 
other places. I can say that we will be able to take a closer 
look at those issues if they arise.
    Mr. Doolittle. One of the concerns I have, and I do not 
know of any other agency that is like this, is that normally, 
if somebody down at the lower level makes decisions, those are 
subject to review and modification higher up, but in the Fish 
and Wildlife Service that does not seem to be the case. That is 
certainly not the culture. Now are you saying this result is 
produced by the Endangered Species Act, or is that something 
where the pattern that has existed could, indeed, be changed?
    Secretary Norton. That is part of the structure of the 
Endangered Species Act. The way in which the decisions are made 
make it very difficult for anyone further up the chain to 
change the direction after it is initially established at the 
field level.
    We do not have that kind of an approach when it comes to 
other aspects of Fish and Wildlife Service management. Those 
operate in the same way as any other departments. That requires 
a lot more advanced planning, making sure that we have the 
scientific review process in place and that we plan ahead on 
those. So addressing this is something very much on our radar 
screen.

                         TRANSFER OF FACILITIES

    Mr. Doolittle. You are working on that.
    I apologize. I came late, so maybe the chairman asked this 
question, but for my final question, I would like to inquire 
about this--the Bureau some time ago determined it was going to 
facilitate the transfer of facilities back into the hands of 
the local districts that operate them. The way that the 
Interior Department interrelates to the Bureau of Reclamation 
is a disaster, in my opinion, in this one respect, that if we 
work to pass legislation, the solicitors report to the Interior 
Department, not the Bureau of Reclamation. We follow the advice 
that is given to us by the solicitors, and then once we pass an 
act of Congress, we are informed by the solicitor, oh, this is 
not drafted right. Well, they are the ones that drafted it.
    I am experiencing this with reference to Sly Park. 
Commissioner, you and I talked about this. Have you been able 
to look into that situation yet?
    Mr. Keys. Mr. Doolittle, yes, sir, we have. We are going 
back to see if there is not some way that we can accomplish 
what you are trying to do there. There is a problem with the 
water rights there, and the authorization to make that 
transfer.
    If there is any way possible to do it with the current 
legislation, we will do that; if not, we will come back and 
talk with you.
    Mr. Doolittle. I am not going to argue the details. Thank 
you. Keep looking into it. I hope you find a way to make it 
happen. I mean, an act of Congress is a big deal. I did not 
realize how big a deal that was, really, until I became a 
member of Congress. When we go to the trouble to pass such a 
thing, and then have the very people who advised us on how to 
draft it tell us there is a flaw in the drafting, it does not 
sit very well. I had exactly the same thing happen with 
legislation that we passed for Mr. Solomon Ortiz in Corpus 
Christi, Texas, where we had to go back and pass a second bill 
after the solicitor misadvised us on drafting the first bill.
    Could you supply for the record information on transfers 
or, if you know off the top of your head, tell us, but I know 
we have had a handful of transfers. Despite the Clinton 
administration's professed policy to support this, it was like 
pulling teeth to ever actually get them approved, and I would 
like to know what is the status of the transfers that were 
approved by the Congress, how many have actually been affected, 
and secondly what is this administration proposing relative to 
future transfers?
    Mr. Keys. Mr. Doolittle, we have a number of them 
completed, a number of them underway, and we would certainly 
supply you a list of all of those that are completed, underway 
and maybe even anticipated.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T9478A.650
    
    [GRAPHIC] [TIFF OMITTED] T9478A.651
    
    Mr. Doolittle. Thank you.

                      CALIFORNIA ISSUES FOLLOW-UP

    Mr. Callahan. Following up on some of Congressman 
Doolittle's remarks, this is almost a sovereignty issue with 
respect to the State of California. They want the Federal 
Government to be involved in intrastate problems, and I guess 
we have to be because of the cost. But my observation, I have 
visited that area of the Auburn Dam, just looking at it from 
outside the forest, Congressman Doolittle is right.There is no 
reason we should not proceed in that direction.
    Secondly, we are criticized when we appropriate money for 
nonauthorized projects. Now this authorization bill has been 
pending for years, and I am tired of hearing from the 
leadership and from other members of Congress, ``Why are you 
guys always appropriating money without authorization?''
    My advice to you is to get with the principles of the two 
sides of this debate and get an authorization bill. I do not 
know what the bill should say, but I do know there are two 
sides.
    Thirdly, with respect to Klamath and obeying existing laws, 
the Endangered Species Act says that you must include an 
economic impact factor in your decision-making. Fish and 
Wildlife has ignored this, but you, as the Secretary of the 
Interior, ought to be filing injunctions against Fish and 
Wildlife if, indeed, they are violating the law.
    In the Klamath situation, obviously, the law was violated. 
And even the scientific evidence that was produced, that the 
National Academy of Science indicate that it was erroneous, 
indicates to me that someone in this administration or someone 
in this Congress has got to take on Fish and Wildlife and has 
got to tell them they just cannot, because one individual wants 
to do something, he cannot disrupt the lives and the economy of 
an entire community of the United States. So that is something 
I would suggest you consider, in ridiculous cases such as 
Klamath, that you ought to file injunctions against Fish and 
Wildlife.
    Secretary Norton. Mr. Chairman, the Klamath situation has 
been very disturbing for us. We were concerned by what we saw 
from the science. We understood the limitations of those of us 
coming in at the upper management levels to counteract what the 
scientists were telling us was necessary. That is why we 
referred this matter to the National Academy of Sciences for 
their review.
    I want to say that I do not think any laws were violated. 
It was a question of scientific judgment that was exercised.
    Mr. Callahan. Well, maybe not a violation, but certainly 
the consideration of economic impact on these farmers was not 
taken into consideration, and the Endangered Species Act 
specifically says it must. It was ignored, and this did not 
happen under your watch. We know that. I am saying, indeed, if 
you are faced with this again, then get your solicitor, get 
your staff to read the Endangered Species Act, and they must 
comply with all of it, not just what some environmentalist 
wants them to comply with, when it impacts the livelihoods of 
people as dramatically as this one did.
    Secretary Norton. Mr. Chairman, we are going through a 
review of our Endangered Species administration policies to 
make sure that we are acting in a way that is consistent with 
the act and to make sure that we are looking at ways to try to 
avoid some of these types of situations by having a good 
approach. To make sure, for example, that economic analysis is 
considered within the critical habitat designations, which is 
the area where that is clearly authorized. We are working on a 
number of ways to improve that process.

                         BUDGET REQUEST TO OMB

    Mr. Callahan. Good. Let me just ask another question, and 
you do not have to answer it if you do not want to, and that is 
about the submission of your budget request to OMB this year. 
What did you ask them for in both your areas of jurisdiction?
    Secretary Norton. I do not have that information.
    Mr. Callahan. Was it more or less than you got?
    Secretary Norton. As usual, there were some issues where we 
had more, some where we had less. I do not have the 
particulars.
    Mr. Callahan. Did you ask, Commissioner, for more or less?
    Mr. Keys. Mr. Chairman, in some areas more; in some areas, 
less. [Laughter.]
    Mr. Callahan. I am going to tell you, you are going to get 
more or less than what the OMB submits. [Laughter.]
    We have been amazed here, during this appropriation 
process, at the ability of one individual who has an agenda--
down in the bowels of OMB to completely force you all to come 
and ask for less, when you know full well that you cannot 
fulfill your total mission with the amount they are 
recommending. I applaud you for following your commander-in-
chief, and the President of the United States and backing up 
his budget request. But the Appropriations Committee, 
especially, is growing more and more concerned about OMB 
dictating policy through the appropriation process.
    I wondered if you have found, either of you have found, 
during the OMB process, that maybe there were some individuals 
there that were trying to impose their own philosophies or 
agendas on policy by refusing to include monies that you 
requested for specific programs.
    Secretary Norton. Mr. Chairman, the OMB role is a difficult 
one. They have to keep all of us from asking for the moon, and 
especially when we have approaches that need to be taken into 
account to deal with September 11th and the new priorities 
because of that. They have had a very difficult time, and we 
have worked very closely with them to try to meet those needs. 
I have recognized that we are in a situation today that 
requires all of us to be fiscally conservative in what we are 
looking at to try to make sure that we are operating as 
effectively as possible within the dollar amounts that are 
realistically available.
    So we are taking very seriously the management initiatives 
that the President is pushing for that I think will allow us to 
provide better services at a lower cost. The President feels 
strongly that those types of improvements in Government 
services are things that are necessary and that we need to 
avoid getting ourselves into a situation of overspending so 
that we are causing problems for future years.
    Mr. Callahan. Well, we do not fault the President, nor do 
we really fault his Cabinet, but we find that, in some 
instances, OMB, even contrary or without even any advance 
notice to some of the departments, is invoking their own 
personal agenda into the budget process indicating that the 
administration does not support certain things, when, indeed, 
the administration does. I just wondered if you all had had any 
similar experience, where you had a successful program and some 
individual at OMB did not like it so they just left it out of 
your request.
    Secretary Norton. We have gone back-and-forth with OMB, as 
everybody does, as we do with Congress. They have their 
appropriate role. Where we have felt strongly aboutsomething, 
we have made clear that we feel strongly about it. So it is, I think, a 
healthy back and forth.
    Mr. Callahan. Are you satisfied with what they asked for, 
and you can fully run your responsibilities and charges with 
the money that OMB is requesting?
    Mr. Keys. Yes, sir. We have good luck working with them 
right now. While there may be some directions from above that 
we are not aware of, the examiners that we work with have been 
very fair and good to work with. Our allotment this year was 
more than last year, so we have had good luck working with 
them.
    Mr. Callahan. Well, we find that especially true in areas 
of a more liberal agenda, especially toward the environment. 
They are infiltrated with environmentalists over there, and it 
is not just in the jurisdiction of this committee, it is other 
committees. I serve on Foreign Operations, and I was chairman 
of that committee for 6 years and created a child survival 
account, which is the most popular form of foreign assistance 
that we deliver worldwide, not only with people in other 
nations, but with the Congress. And simply because of one 
individual who happened to work in the Senate when I started 
this program, the administration was embarrassed because this 
was left out, because of one individual's desire to leave 
something out that she did not particularly like. But that is 
not a problem we can resolve today.
    Your problem is convincing the Congress to give you an 
adequate supply of money to effectively run your organizations, 
and we are going to do that.
    Do you have any further questions?

                                 CALFED

    Mr. Visclosky. Just for a moment. I would follow up on Mr. 
Doolittle's point, as far as the transfers, both those in 
process, Mr. Commissioner, as well as prospective. John, before 
you came, I also had addressed the issue of CALFED, and I am 
not opposed to the program, but my concern is, as I had 
expressed earlier, is that if we continue to appropriate money 
piecemeal under current authorization, we are not going to 
force the issue and bring all of the parties, as the chairman 
also suggested, to the table and resolve the authorization 
issues.
    Mr. Doolittle. Would you yield just for a response?
    Mr. Visclosky. Sure.
    Mr. Doolittle. I appreciate both of you bringing that up. 
This CALFED is great for only one group so far, the 
environmentalists. They are getting everything they want. 
Nobody else is getting anything, and I do not think we ought to 
continue to indulge them in that. The whole thing was supposed 
to be we all get well together, but only one group is getting 
well. Frankly, some of these districts who really need the 
water have already given up on CALFED. They are going to move 
to other ways, recycling, desalination, water reuse of one kind 
or another because they just cannot wait for this chimera of 
CALFED, which has now been in play for some number of years, 
and which has failed to deliver anything. So do not be too 
sanguine about CALFED, please.
    Mr. Visclosky. Thank you, Mr. Chairman.
    Mr. Callahan. Ms. Allard?
    Ms. Roybal-Allard. No.
    Mr. Callahan. Thank you very much for your testimony. We 
have additional questions we will submit for the record.
    Secretary Norton. Thank you.
    [Questions submitted for the record and responses follow:]
    [GRAPHIC] [TIFF OMITTED] T9478A.652
    
    [GRAPHIC] [TIFF OMITTED] T9478A.653
    
    [GRAPHIC] [TIFF OMITTED] T9478A.654
    
    [GRAPHIC] [TIFF OMITTED] T9478A.655
    
    [GRAPHIC] [TIFF OMITTED] T9478A.656
    
    [GRAPHIC] [TIFF OMITTED] T9478A.657
    
    [GRAPHIC] [TIFF OMITTED] T9478A.658
    
    [GRAPHIC] [TIFF OMITTED] T9478A.659
    
    [GRAPHIC] [TIFF OMITTED] T9478A.660
    
    [GRAPHIC] [TIFF OMITTED] T9478A.661
    
    [GRAPHIC] [TIFF OMITTED] T9478A.662
    
    [GRAPHIC] [TIFF OMITTED] T9478A.663
    
    [GRAPHIC] [TIFF OMITTED] T9478A.664
    
    [GRAPHIC] [TIFF OMITTED] T9478A.665
    
    [GRAPHIC] [TIFF OMITTED] T9478A.666
    
    [GRAPHIC] [TIFF OMITTED] T9478A.667
    
    [GRAPHIC] [TIFF OMITTED] T9478A.668
    
    [GRAPHIC] [TIFF OMITTED] T9478A.669
    
    [GRAPHIC] [TIFF OMITTED] T9478A.670
    
    [GRAPHIC] [TIFF OMITTED] T9478A.671
    
    [GRAPHIC] [TIFF OMITTED] T9478A.672
    
    [GRAPHIC] [TIFF OMITTED] T9478A.673
    
    [GRAPHIC] [TIFF OMITTED] T9478A.674
    
    [GRAPHIC] [TIFF OMITTED] T9478A.675
    
    [GRAPHIC] [TIFF OMITTED] T9478A.676
    
    [GRAPHIC] [TIFF OMITTED] T9478A.677
    
    [GRAPHIC] [TIFF OMITTED] T9478A.678
    
    [GRAPHIC] [TIFF OMITTED] T9478A.679
    
    [GRAPHIC] [TIFF OMITTED] T9478A.680
    
    [GRAPHIC] [TIFF OMITTED] T9478A.681
    
    [GRAPHIC] [TIFF OMITTED] T9478A.682
    
    [GRAPHIC] [TIFF OMITTED] T9478A.683
    
    [GRAPHIC] [TIFF OMITTED] T9478A.684
    
    [GRAPHIC] [TIFF OMITTED] T9478A.685
    
    [GRAPHIC] [TIFF OMITTED] T9478A.686
    
    [GRAPHIC] [TIFF OMITTED] T9478A.687
    
    [GRAPHIC] [TIFF OMITTED] T9478A.688
    
    [GRAPHIC] [TIFF OMITTED] T9478A.689
    
    [GRAPHIC] [TIFF OMITTED] T9478A.690
    
    [GRAPHIC] [TIFF OMITTED] T9478A.691
    
    [GRAPHIC] [TIFF OMITTED] T9478A.692
    
    [GRAPHIC] [TIFF OMITTED] T9478A.693
    
    [GRAPHIC] [TIFF OMITTED] T9478A.694
    
    [GRAPHIC] [TIFF OMITTED] T9478A.695
    
    [GRAPHIC] [TIFF OMITTED] T9478A.696
    
    [GRAPHIC] [TIFF OMITTED] T9478A.697
    
    [GRAPHIC] [TIFF OMITTED] T9478A.698
    
    Mr. Callahan. At this point, we will place the budget 
justifications for the Appalachian Regional Commission in the 
record.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T9478A.699
    
    [GRAPHIC] [TIFF OMITTED] T9478A.700
    
    [GRAPHIC] [TIFF OMITTED] T9478A.701
    
    [GRAPHIC] [TIFF OMITTED] T9478A.702
    
    [GRAPHIC] [TIFF OMITTED] T9478A.703
    
    [GRAPHIC] [TIFF OMITTED] T9478A.704
    
    [GRAPHIC] [TIFF OMITTED] T9478A.705
    
    [GRAPHIC] [TIFF OMITTED] T9478A.706
    
    [GRAPHIC] [TIFF OMITTED] T9478A.707
    
    [GRAPHIC] [TIFF OMITTED] T9478A.708
    
    [GRAPHIC] [TIFF OMITTED] T9478A.709
    
    [GRAPHIC] [TIFF OMITTED] T9478A.710
    
    [GRAPHIC] [TIFF OMITTED] T9478A.711
    
    [GRAPHIC] [TIFF OMITTED] T9478A.712
    
    [GRAPHIC] [TIFF OMITTED] T9478A.713
    
    [GRAPHIC] [TIFF OMITTED] T9478A.714
    
    [GRAPHIC] [TIFF OMITTED] T9478A.715
    
    [GRAPHIC] [TIFF OMITTED] T9478A.716
    
    [GRAPHIC] [TIFF OMITTED] T9478A.717
    
    [GRAPHIC] [TIFF OMITTED] T9478A.718
    
    [GRAPHIC] [TIFF OMITTED] T9478A.719
    
    [GRAPHIC] [TIFF OMITTED] T9478A.720
    
    [GRAPHIC] [TIFF OMITTED] T9478A.721
    
    [GRAPHIC] [TIFF OMITTED] T9478A.722
    
    [GRAPHIC] [TIFF OMITTED] T9478A.723
    
    [GRAPHIC] [TIFF OMITTED] T9478A.724
    
    [GRAPHIC] [TIFF OMITTED] T9478A.725
    
    [GRAPHIC] [TIFF OMITTED] T9478A.726
    
    [GRAPHIC] [TIFF OMITTED] T9478A.727
    
    [GRAPHIC] [TIFF OMITTED] T9478A.728
    
    [GRAPHIC] [TIFF OMITTED] T9478A.729
    
    [GRAPHIC] [TIFF OMITTED] T9478A.730
    
    [GRAPHIC] [TIFF OMITTED] T9478A.731
    
    [GRAPHIC] [TIFF OMITTED] T9478A.732
    
    [GRAPHIC] [TIFF OMITTED] T9478A.733
    
    [GRAPHIC] [TIFF OMITTED] T9478A.734
    
    [GRAPHIC] [TIFF OMITTED] T9478A.735
    
    [GRAPHIC] [TIFF OMITTED] T9478A.736
    
    [GRAPHIC] [TIFF OMITTED] T9478A.737
    
    [GRAPHIC] [TIFF OMITTED] T9478A.738
    
    [GRAPHIC] [TIFF OMITTED] T9478A.739
    
    [GRAPHIC] [TIFF OMITTED] T9478A.740
    
    [GRAPHIC] [TIFF OMITTED] T9478A.741
    
    [GRAPHIC] [TIFF OMITTED] T9478A.742
    
    [GRAPHIC] [TIFF OMITTED] T9478A.743
    
    [GRAPHIC] [TIFF OMITTED] T9478A.744
    
    [GRAPHIC] [TIFF OMITTED] T9478A.745
    
    [GRAPHIC] [TIFF OMITTED] T9478A.746
    
    [GRAPHIC] [TIFF OMITTED] T9478A.747
    
    [GRAPHIC] [TIFF OMITTED] T9478A.748
    
    [GRAPHIC] [TIFF OMITTED] T9478A.749
    
    [GRAPHIC] [TIFF OMITTED] T9478A.750
    
    [GRAPHIC] [TIFF OMITTED] T9478A.751
    
    [GRAPHIC] [TIFF OMITTED] T9478A.752
    
    [GRAPHIC] [TIFF OMITTED] T9478A.753
    
    [GRAPHIC] [TIFF OMITTED] T9478A.754
    
    [GRAPHIC] [TIFF OMITTED] T9478A.755
    
    [GRAPHIC] [TIFF OMITTED] T9478A.756
    
    [GRAPHIC] [TIFF OMITTED] T9478A.757
    
    [GRAPHIC] [TIFF OMITTED] T9478A.758
    
    [GRAPHIC] [TIFF OMITTED] T9478A.759
    
    [GRAPHIC] [TIFF OMITTED] T9478A.760
    
    [GRAPHIC] [TIFF OMITTED] T9478A.761
    
    [GRAPHIC] [TIFF OMITTED] T9478A.762
    
    [GRAPHIC] [TIFF OMITTED] T9478A.763
    
    [GRAPHIC] [TIFF OMITTED] T9478A.764
    
    [GRAPHIC] [TIFF OMITTED] T9478A.765
    
    [GRAPHIC] [TIFF OMITTED] T9478A.766
    
    [GRAPHIC] [TIFF OMITTED] T9478A.767
    
    [GRAPHIC] [TIFF OMITTED] T9478A.768
    
    [GRAPHIC] [TIFF OMITTED] T9478A.769
    
    [GRAPHIC] [TIFF OMITTED] T9478A.770
    
    [GRAPHIC] [TIFF OMITTED] T9478A.771
    
    [GRAPHIC] [TIFF OMITTED] T9478A.772
    
    [GRAPHIC] [TIFF OMITTED] T9478A.773
    
    [GRAPHIC] [TIFF OMITTED] T9478A.774
    
    [GRAPHIC] [TIFF OMITTED] T9478A.775
    
    [GRAPHIC] [TIFF OMITTED] T9478A.776
    
    [GRAPHIC] [TIFF OMITTED] T9478A.777
    
    [GRAPHIC] [TIFF OMITTED] T9478A.778
    
    [GRAPHIC] [TIFF OMITTED] T9478A.779
    
    [GRAPHIC] [TIFF OMITTED] T9478A.780
    
    [GRAPHIC] [TIFF OMITTED] T9478A.781
    
    [GRAPHIC] [TIFF OMITTED] T9478A.782
    
    [GRAPHIC] [TIFF OMITTED] T9478A.783
    
    [GRAPHIC] [TIFF OMITTED] T9478A.784
    
    [GRAPHIC] [TIFF OMITTED] T9478A.785
    
    [GRAPHIC] [TIFF OMITTED] T9478A.786
    
    [GRAPHIC] [TIFF OMITTED] T9478A.787
    
    [GRAPHIC] [TIFF OMITTED] T9478A.788
    
    [GRAPHIC] [TIFF OMITTED] T9478A.789
    
    [GRAPHIC] [TIFF OMITTED] T9478A.790
    
    [GRAPHIC] [TIFF OMITTED] T9478A.791
    
    [GRAPHIC] [TIFF OMITTED] T9478A.792
    
    [GRAPHIC] [TIFF OMITTED] T9478A.793
    
    [GRAPHIC] [TIFF OMITTED] T9478A.794
    
    [GRAPHIC] [TIFF OMITTED] T9478A.795
    
    [GRAPHIC] [TIFF OMITTED] T9478A.796
    
    [GRAPHIC] [TIFF OMITTED] T9478A.797
    
    [GRAPHIC] [TIFF OMITTED] T9478A.798
    
    [GRAPHIC] [TIFF OMITTED] T9478A.799
    
    [GRAPHIC] [TIFF OMITTED] T9478A.800
    
    [GRAPHIC] [TIFF OMITTED] T9478A.801
    
    [GRAPHIC] [TIFF OMITTED] T9478A.802
    
    [GRAPHIC] [TIFF OMITTED] T9478A.803
    
    [GRAPHIC] [TIFF OMITTED] T9478A.804
    
    [GRAPHIC] [TIFF OMITTED] T9478A.805
    
    [GRAPHIC] [TIFF OMITTED] T9478A.806
    
    [GRAPHIC] [TIFF OMITTED] T9478A.807
    
    [GRAPHIC] [TIFF OMITTED] T9478A.808
    
    [GRAPHIC] [TIFF OMITTED] T9478A.809
    
    [GRAPHIC] [TIFF OMITTED] T9478A.810
    
    [GRAPHIC] [TIFF OMITTED] T9478A.811
    
    [GRAPHIC] [TIFF OMITTED] T9478A.812
    
    [GRAPHIC] [TIFF OMITTED] T9478A.813
    
    [GRAPHIC] [TIFF OMITTED] T9478A.814
    
    [GRAPHIC] [TIFF OMITTED] T9478A.815
    
    [GRAPHIC] [TIFF OMITTED] T9478A.816
    
    [GRAPHIC] [TIFF OMITTED] T9478A.817
    
    [GRAPHIC] [TIFF OMITTED] T9478A.818
    
    [GRAPHIC] [TIFF OMITTED] T9478A.819
    
    [GRAPHIC] [TIFF OMITTED] T9478A.820
    
    [GRAPHIC] [TIFF OMITTED] T9478A.821
    
    [GRAPHIC] [TIFF OMITTED] T9478A.822
    
    [GRAPHIC] [TIFF OMITTED] T9478A.823
    
    [GRAPHIC] [TIFF OMITTED] T9478A.824
    
    [GRAPHIC] [TIFF OMITTED] T9478A.825
    


                               I N D E X

                              ----------                              

                         BUREAU OF RECLAMATION

                                                                   Page
Ak Chin Indian Water Rights Settlement Project...................   712
Animas-La Plata Project.......................................... 3, 23
Bend Feed Canal Pipeline.........................................   724
Boise Area Project...............................................   721
Bureau of Reclamation, Budget Justifications, FY 2003............31-614
Bureau of Indian Affairs.......................................675, 700
CALFED...............................................625, 627, 647, 790
California Water Quality and Reliability Act of 2001 (H.R. 2404).   627
California Projects and Issues.................................683, 688
California Bay-Delta Restoration...........................25, 647, 692
California Investigations Program................................   716
California 4.4 Plan..............................................   677
California Ecosystem, Water Supply, and Water Quality Act of 2001 
  (S. 976).......................................................   640
Callahan, Congressman Sonny, Opening Remarks.....................     1
Central Utah Project, Budget Justification, FY 2003.............615-623
Central Utah Project..........................................4, 11, 23
Central Valley Project Restoration Fund....................25, 705, 731
Central Valley Project...........................................    23
Central Arizona Project.........................................23, 712
Colorado Ute Tribes..............................................     3
Colorado River Basin Salinity Control Project--Title I...........   714
Colorado River Storage Project--Section 5........................    24
Colorado-Big Thompson............................................   709
Columbia/Snake River ESA Implementation Program..................   721
Columbia-Snake River Salmon Recovery.............................    24
Cooperative Conservation Initiative..............................  3, 7
Diamond Fork System..............................................     4
District Court for the District of Columbia......................     3
Doolittle, Congressman John, Opening Remarks.....................   682
Drainage Management Program......................................   719
Drought.........................................................27, 704
Edwards, Congressman Chet, Opening Statement.....................   655
Endangered Species Conservation/Recovery.......................703, 723
Everglades.......................................................    11
Fish Screen Improvement Projects.................................   717
Fish and Wildlife Service........................................   684
Frelinghuysen, Congressman Rodney, Opening Remarks...............   657
Gila River.......................................................   653
Glen Colusa Irrigation District..................................   719
Homeland Security................................................    13
Hoover Dam Visitors Center.....................................663, 675
Hunter, Congressman Duncan, Statement............................   651
Indian Education.................................................    10
Investigations Programs..........................................   702
Kendrick Project.................................................   710
Keys, Commissioner John, Opening Remarks.........................    17
Keys, Commissioner John, Prepared Statement......................    20
Klamath Project............................................24, 683, 696
Klamath Feasibility Studies......................................   720
Klamath-A-Canal..................................................   720
Lake Mead/Las Vegas Wash Program.................................   714
Lake Tahoe Regional Wetlands Development.........................   720
Landowner Partnerships and Other Conservation Tools..............     8
Lewis and Clark Rural Water System...............................   711
Loan Program.....................................................   704
Long-Term Water Supply Study.....................................   655
Lower Colorado River Operations Program..........................    24
Mni Wiconi Project...............................................   737
National Wildlife Refuge Centennial..............................    12
Natoma Pipeline System Replacement...............................   716
New York and New Jersey Highlands................................   657
Norton, Secretary Gayle, Opening Remarks.........................     1
Norton, Secretary Gayle, Prepared Statement......................     5
Operation and Maintenance Backlog................................   658
Park Maintenance Backlog and Natural Resources...................    11
Pastor, Congressman Ed, Opening Remarks..........................   662
Placer County Water Agency.......................................   717
Platte River Recovery Implementation Program.....................   709
Policy and Administration........................................   709
Power O&M........................................................   728
Recreation Management............................................   721
Sacramento River Contract Litigation Settlement..................   718
Safety of Dams...................................................23, 27
Salton Sea......................................624, 651, 652, 653, 715
San Gabriel Restoration Fund...................................681, 715
Selected Solution................................................   719
Site Security/Counter Terrorism..................23, 666, 697, 725, 730
South Dakota Rural Water Projects................................    24
Title Transfer of Facilities...................................685, 701
Trust Programs...................................................     8
Upper Colorado Region............................................   711
Visclosky, Congressman Peter, Opening Remarks....................   625
Water Reclamation and Reuse Projects..............25, 27, 677, 704, 733
Western Water Enhancement Security Act (H.R. 1985)...............   627
Yakima River Basin Water Enhancement Project.....................   723

                    APPALACHIAN REGIONAL COMMISSION

Summary of Budget Request........................................   742
Mission and Record of Success....................................   743
General Statement and Summary....................................   744
Area Development Program.........................................   754
Appalachian Development Highway System...........................   764
Local Development Districts and Technical Assistance.............   768
Salaries and Expenses............................................   772
ARC Administrative Expenses......................................   775
Independent Evaluation of ARC Programs...........................   776
Telecommunications Plan and Record of Accomplishments............   783
Socio-Economic Data..............................................   787
Regional Maps....................................................   800
Annual Performance Plan.........................................803-866

                                <greek-d>


</pre></body></html>
